<html>
<title> - HOMELAND SECURITY: SURVEILLANCE AND MONITORING OF EXPLOSIVE STORAGE FACILITIES, PART II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  HOMELAND SECURITY: SURVEILLANCE AND MONITORING OF EXPLOSIVE STORAGE 
                          FACILITIES, PART II

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2005

                               __________

                           Serial No. 109-105

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-260                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                        Robert A. Briggs, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 31, 2005.................................     1
Statement of:
    Ekstrand, Dr. Laurie E., Director, Homeland Security and 
      Justice Team, U.S. Government Accountability Office, 
      accompanied by Philip Caramia, Senior Analyst, Homeland 
      Security and Justice Issues; Michael Gulledge, Director, 
      Office of Evaluation and Inspections Division, Office of 
      the Inspector General, U.S. Department of Justice; Lewis P. 
      Raden, Assistant Director Enforcement Programs and Services 
      Division, the Bureau of Alcohol, Tobacco and Firearms, U.S. 
      Department of Justice......................................     9
        Ekstrand, Dr. Laurie E...................................     9
        Gulledge, Michael........................................    25
        Raden, Lewis P...........................................    37
    Gonzalez, Fernando, battalion chief, Fort Worth Fire 
      Department, Division of Arson/Bomb Investigation; Dr. Tibor 
      G. Rozgony, professor and head, Mining Engineering 
      Department, Colorado School of Mines; Sgt. Stanley 
      Mathiasen, chairman, National Bomb Squad Commanders 
      Advisory Board; Dr. Vilem Petr, assistant research 
      professor, Mining Engineering Department, Colorado School 
      of Mines; James Christopher Ronay, president, the Institute 
      of Makers of Explosives [IME]; Don Horsley, county sheriff, 
      San Mateo County Sheriff's Office; and Lt. Gary Kirby, San 
      Jose Police Department.....................................    62
        Gonzalez, Fernando.......................................    62
        Horsley, Don.............................................    97
        Kirby, Gary..............................................   102
        Mathiasen, Sgt. Stanley..................................    79
        Petr, Dr. Vilem..........................................    85
        Ronay, James Christopher.................................    92
        Rozgony, Dr. Tibor G.....................................    68
Letters, statements, etc., submitted for the record by:
    Ekstrand, Dr. Laurie E., Director, Homeland Security and 
      Justice Team, U.S. Government Accountability Office, 
      prepared statement of......................................    11
    Gonzalez, Fernando, battalion chief, Fort Worth Fire 
      Department, Division of Arson/Bomb Investigation, prepared 
      statement of...............................................    64
    Gulledge, Michael, Director, Office of Evaluation and 
      Inspections Division, Office of the Inspector General, U.S. 
      Department of Justice, prepared statement of...............    27
    Horsley, Don, county sheriff, San Mateo County Sheriff's 
      Office, prepared statement of..............................    99
    Kirby, Gary, San Jose Police Department, prepared statement 
      of.........................................................   104
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California, prepared statement of.......................     7
    Mathiasen, Sgt. Stanley, chairman, National Bomb Squad 
      Commanders Advisory Board, prepared statement of...........    81
    Petr, Dr. Vilem, assistant research professor, Mining 
      Engineering Department, Colorado School of Mines, prepared 
      statement of...............................................    86
    Raden, Lewis P., Assistant Director Enforcement Programs and 
      Services Division, the Bureau of Alcohol, Tobacco and 
      Firearms, U.S. Department of Justice, prepared statement of    39
    Ronay, James Christopher, president, the Institute of Makers 
      of Explosives [IME], prepared statement of.................    93
    Rozgony, Dr. Tibor G., professor and head, Mining Engineering 
      Department, Colorado School of Mines, prepared statement of    70
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3


  HOMELAND SECURITY: SURVEILLANCE AND MONITORING OF EXPLOSIVE STORAGE 
                          FACILITIES, PART II

                              ----------                              


                        MONDAY, OCTOBER 31, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                     San Mateo, CA.
    The subcommittee met, pursuant to notice, at 9 a.m., in San 
Mateo Council Chambers, 330 West 20th Avenue, San Mateo, CA, 
Hon. Christopher Shays (chairman of the subcommittee) 
presiding.
    Present: Representatives Shays and Lantos.
    Staff present: J. Vincent Chase, chief investigator; Robert 
A. Briggs, clerk; Jason M. Rosenstock, minority senior 
legislative assistant; Lynne Weil, minority communications 
director; and Ron Grimes, minority legislative director.
    Mr. Shays. The Subcommittee on National Security, Emerging 
Threats, and International Relations hearing entitled, 
``Surveillance and Monitoring of Explosive Storage Facilities, 
Part II,'' is called to order. Good morning. It is good to be 
back in San Mateo with my good friend and colleague Tom Lantos.
    The persistence and perspicacity he brings to national and 
international issues inspire bipartisan respect, and it is a 
privilege to join him in today's important discussion. Ours is 
an oversight partnership dating back to my first days as a 
Member of Congress in 1987. I have learned a lot since then, 
much of it from Tom.
    In August of last year, this subcommittee met here and 
learned first-hand about security gaps and potential 
vulnerabilities in the protection of explosive material held by 
State and local authorities. To get a clearer picture of the 
depth and breadth of the problem, we asked the Government 
Accountability Office [GAO] to visit some explosive storage 
facilities and assess the rigor and consistency of security 
measures there.
    Why? Because it is beyond debate storage magazines 
containing C4 plastic explosives and other highly volatile 
material are attractive targets for terrorists and criminals 
looking for a big bang on the public buck. An unknown number of 
publicly maintained storage sites, likely containing hundreds 
of tons of explosives, constitute a potentially serious 
homeland security challenge, a classic disaster waiting to 
happen. If not critical infrastructure, explosive storage sites 
certainly represent combustible temptations over which someone 
should have adequate visibility and accountability.
    Regretfully, the GAO report released today describes an 
uncertain, inconsistent, at times inadequate, system of 
regulation over publicly managed explosive storage facilities. 
The Federal Government, through the Department of Justice's 
Bureau of Alcohol, Tobacco, Firearms and Explosives [ATF], 
licenses and inspects private manufacturers and handlers of 
explosives but has almost no authority over State and local 
government users.
    Their compliance with security standards is voluntary. ATF 
does require public facilities to report thefts of explosive 
materials, but even that requirement is not uniformly 
understood, adhered to, or enforced.
    The GAO report also pierces the assumption that State and 
local regulation of explosives magazines would fill any vacuum 
left by Federal law. Most of the 18 public storage facilities 
visited by GAO were not required to be licensed or inspected by 
State or local regulators. But, as we will hear in testimony 
today, some States and localities have taken steps to secure 
explosive stockpiles, following best practices in many respects 
more demanding than the voluntary ATF standards.
    So we look to our witnesses this morning to help us 
understand what is being done to secure government-held 
explosives, and what more should be done to define and mitigate 
the threat posed by these facilities. We appreciate the time, 
dedication and expertise of all our witnesses and we look 
forward to their testimony.
    At this time the chair would recognize the distinguished 
Member Mr. Lantos.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.001
    
    [GRAPHIC] [TIFF OMITTED] T5260.002
    
    Mr. Lantos. Thank you very much, Mr. Chairman. I am 
delighted to be with you again here in San Mateo following the 
hearing we conducted in August of last year. At the outset, I 
want to express my very sincere appreciation to the remarkable 
work done by members of your staff and members of my staff in 
preparing for this hearing. I want to thank you once again for 
agreeing to convene this subcommittee hearing in San Mateo 
where the national problem of poorly secured high explosives 
first came to light.
    I also want to put in some kind of perspective our 
collaborative relationship. Not only have we worked together 
since your arrival in Congress many years ago, but just this 
past year, year and a half, I had the pleasure of working with 
you on three entirely different issues each of them of enormous 
importance to the American people and each of them totally 
nonpartisan in character.
    When it was brought to my attention that Reservists and 
National Guardsmen and women suffer a severe financial hardship 
in many instances when they are activated, I decided to move 
with legislation to rectify this appalling injustice. Not only 
are we asking Reservists and National Guard folks to risk their 
lives in conflicts in Afghanistan and Iraq, but we are also 
imposing an extraordinary financial burden on members of their 
families.
    This issue was brought to me by a constituent of mine in 
south San Francisco. I was very delighted that you chose to be 
the No. 1 Republican co-sponsor of this legislation. The goals 
of which we have partially achieved and we are working on fully 
achieving them in the near future.
    Second, you came on board with the legislation that we are 
dealing with today. In San Mateo, when we discovered the theft 
of explosives, I asked you to call a hearing in your capacity 
as chairman and, as always, you immediately and graciously 
responded in the affirmative.
    The final piece of legislation on which you and I are the 
principal co-authors is a legislation that was born as a result 
of the hurricanes in the Gulf. As everybody else, I was glued 
to my television set watching the nightmare pictures. But the 
one that stood with me most poignantly was a 7-year-old little 
boy with his dog who was taken from him because dogs are not 
allowed in shelters.
    If you saw the face of this little boy, and the only one 
left in his whole life was forcibly taken from him, I felt that 
legislation was needed to deal with this issue. You and I 
introduced legislation, Mr. Chairman, and the markup will take 
place this week to mandate that communities in order to take 
advantage of FEMA funding must provide in their evacuation 
plans provisions for household pets and service animals. Next 
time a tragedy strikes we will never again see a 7-year-old 
little boy or an elderly blind person being deprived of their 
pet or service animal in order to be admitted into a shelter.
    Congress always does its work best when it goes so on a 
bipartisan basis and you are known in Washington not only for 
your passionate commitment to public service but for your deep 
and thorough bipartisanship and I am profoundly grateful for 
that.
    Last year's hearing raised many, if not more, questions 
than it answered. Today we will hear from some of the same 
witnesses and some additional witnesses and hopefully we will 
have more answers than we got 14 months ago. Today we will 
learn the result of a study by the Government Accountability 
Office that Congressman Shays and I commissioned a year ago, a 
study which has just been completed.
    This study, along with the testimony of today's witnesses, 
will be instrumental in ensuring that the legislation Chairman 
Shays and I will introduce in the near future is based on solid 
data. The chilling implications of last summer's theft from a 
poorly secured law enforcement storage shed just a little ways 
from where we hold our hearing horrifically illustrated this 
past July when terrorists attacked the London transportation 
system.
    Immediately after hearing the news of the bombings I rode 
BART to show my support for the safety of the Bay Area Transit 
System. While the terrorists who bombed the London subway used 
homemade devices, I can't help but wonder how much more 
destructive their actions would have been had they been able to 
arm themselves with high strength plastic explosives stolen 
from the San Mateo Law Enforcement Agency bunker.
    At the hearing 14 months ago, the overwhelming response to 
our repeated questions was, ``We don't know. We don't know how 
many public facilities are uninspected by ATF for safety and 
security precautions exit in our country. We don't know how 
much explosive material is stored at these facilities.'' That 
answer was unacceptable then and it most certainly will not 
wash now after 14 months of opportunity to discover the 
answers.
    Mr. Chairman, our country is still very much in the midst 
of the war on terrorism that officially began on September 11, 
2001. Sometimes we are reminded of it dramatically as a bomb 
scare shuts down a tunnel as it recently did in the Washington 
area. While such episodes tend to dominate our attention, we 
should not underestimate the dogged vigilance needed every 
single day so that in this struggle we shall prevail.
    Thieves should not be allowed to raid stockpiles of high 
explosives right in our backyard to sell them to the highest 
bidder, potentially terrorists. Uniform standards for 
safeguarding such materials must be established and they must 
be enforced.
    Mr. Chairman, thank you again for holding this hearing. I 
also want to thank our witnesses for agreeing to share their 
perspectives from this most important topic and I look forward 
to hearing their views.
    [The prepared statement of Hon. Tom Lantos follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.003
    
    Mr. Shays. Thank you, gentlemen. If I had been in the 
cabinet room of the White House and my phone went off, the 
President would have taken it and put it in a glass of water. I 
apologize for the phone going off.
    Mr. Lantos. We plan to do that after the hearing.
    Mr. Shays. I would like to invite our panel to come forward 
and I will introduce them. We have Dr. Laurie E. Ekstrand, 
Director, Homeland Security and Justice Team, U.S. Government 
Accountability Office accompanied by Philip Caramia, Senior 
Analyst, Homeland Security and Justice Issues.
    Our second testimony will be from Michael Gulledge, 
Director, Office of Evaluation and Inspections Division, Office 
of the Inspector General, U.S. Department of Justice.
    Our third testimony will be from Mr. Lewis P. Raden, 
Assistant Director Enforcement Programs and Services Division, 
the Bureau of Alcohol, Tobacco and Firearms, U.S. Department of 
Justice.
    Before swearing our witnesses in--if they would come 
forward. Oh, I see. Are they speaking from--OK. This is 
interesting. I was looking and seeing no witnesses. OK. Before 
swearing them in, let me ask unanimous consent that all members 
of the subcommittee be permitted to place an opening statement 
in the record and the record remain open for 3 days for that 
purpose. Without objection so ordered. I ask further unanimous 
consent that all witnesses be permitted to include their 
written statements in the record and without objection so 
ordered.
    At this time I would ask our witnesses to stand up. If 
there is anyone they may call on to answer a question, I would 
like them sworn in as well if that is the case. If they would 
rise, raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. I will note for the record all four of our 
witnesses have responded in the affirmative and we will begin 
with the GAO. Then we will go to the Inspector General. Then we 
will go to the Bureau of Alcohol, Tobacco and Firearms. The way 
the system works is we have 5 minutes. If you go over 5 minutes 
I am not going to stop you but we would like you to be as close 
to 5 minutes as possible. If you dare go to 10 minutes, things 
go off. Your testimony is very important and we look forward to 
hearing your testimony and then asking you questions.
    Dr. Ekstrand.

   STATEMENTS BY DR. LAURIE E. EKSTRAND, DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE, ACCOMPANIED BY PHILIP CARAMIA, SENIOR ANALYST, HOMELAND 
SECURITY AND JUSTICE ISSUES; MICHAEL GULLEDGE, DIRECTOR, OFFICE 
OF EVALUATION AND INSPECTIONS DIVISION, OFFICE OF THE INSPECTOR 
GENERAL, U.S. DEPARTMENT OF JUSTICE; LEWIS P. RADEN, ASSISTANT 
DIRECTOR ENFORCEMENT PROGRAMS AND SERVICES DIVISION, THE BUREAU 
  OF ALCOHOL, TOBACCO AND FIREARMS, U.S. DEPARTMENT OF JUSTICE

                STATEMENT OF DR. LAURIE EKSTRAND

    Dr. Ekstrand. Mr. Chairman, and Representative Lantos, Mr. 
Caramia and I are very pleased to be here today to discuss 
security at State and local government explosive storage 
facilities. A report on this issue is being issued today in 
conjunction with the hearing. My statement covers three topics 
and let me briefly touch on them in turn.
    First, the extent to which State and local storage 
facilities have been vulnerable to theft. The short answer is 
that no one knows. We know that ATF data indicates that there 
have been nine thefts of explosives from State and local 
government storage facilities during the 3-year period that 
ended in February 2005 and that this is a relatively small 
number compared to the 205 thefts reported from all sources 
combined.
    But we have reason to believe that the actual number of 
thefts from public facilities could be higher than nine. While 
requirements for prompt reporting of thefts from private 
facilities are clear, it is less so for public entities. ATF 
officials acknowledge that State and local governments may be 
unclear as to whether they are covered by theft reporting 
requirements.
    Indeed, during the course of our work we found evidence of 
five thefts from State and local government facilities but only 
four appeared in ATF's theft data base. We are recommending 
that action be taken to ensure that all thefts from public as 
well as private facilities are promptly reported so that 
appropriate actions can be taken to recover the explosives and 
apprehend the thieves.
    Now, let me turn to ATF oversight of State and local 
explosive storage facilities. First, all facilities both public 
and private are required to comply with Federal storage 
regulations. However, only private facilities are required to 
attain a license from ATF. Oversight, and that is inspection to 
ensure that storage standards are being met and sanctions are 
administered for noncompliance, is linked to the licensing 
process. That is because public facilities are not subject to 
licensing. They are not subject to mandatory Federal oversight.
    The licensing process is also the main source of data on 
the numbers of facilities, locations, and types of explosives 
in storage for private sector facilities. As with oversight, no 
licensing results in no nationwide data for public facilities. 
During the course of our work we identified three types of 
State and local government entities that use or stored 
explosives. They were law enforcement bomb squads, public 
universities with mining programs, and transportation 
departments. However, we were unable to gather sufficient 
information to estimate the total number of facilities in these 
categories.
    Finally, during our audit we visited 14 State and local 
entities, 13 bomb squads, and one university. We observed the 
security in place at their total of 18 storage facilities. We 
found a wide variety of safety and security measures in place 
across the facilities. For example, some had fences and 
electronic monitoring devices. One was in the basement of a 
municipal building behind locked doors.
    Another was in an open area without any physical barriers. 
All of the storage facilities seemed to meet ATF's requirements 
in relation to security. However, this is by no means a 
representative sample of public storage facilities nationwide.
    In conclusion, as I indicated, we have made a 
recommendation to try to ensure that all incidents of theft are 
timely reported to ATF so that they can be properly recorded 
and investigated. Not only would this reporting ensure 
investigation of crimes by ATF but it would also help us gauge 
the level of vulnerability of State and local facilities as all 
thefts would be required to be reported.
    This completes my oral statement and Mr. Caramia and I 
would be glad to answer any questions you might have.
    Note.--The GAO report entitled, ``AFT, Thefts of Explosives 
from State and Local Government Storage Facilities Are Few but 
May Be Underreported, GAO-06-92,'' may be found in subcommittee 
files.]
    [The prepared statement of Dr. Ekstrand follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.004
    
    [GRAPHIC] [TIFF OMITTED] T5260.005
    
    [GRAPHIC] [TIFF OMITTED] T5260.006
    
    [GRAPHIC] [TIFF OMITTED] T5260.007
    
    [GRAPHIC] [TIFF OMITTED] T5260.008
    
    [GRAPHIC] [TIFF OMITTED] T5260.009
    
    [GRAPHIC] [TIFF OMITTED] T5260.010
    
    [GRAPHIC] [TIFF OMITTED] T5260.011
    
    [GRAPHIC] [TIFF OMITTED] T5260.012
    
    [GRAPHIC] [TIFF OMITTED] T5260.013
    
    [GRAPHIC] [TIFF OMITTED] T5260.014
    
    [GRAPHIC] [TIFF OMITTED] T5260.015
    
    [GRAPHIC] [TIFF OMITTED] T5260.016
    
    [GRAPHIC] [TIFF OMITTED] T5260.017
    
    Mr. Shays. Thank you.
    Mr. Gulledge.

                 STATEMENT OF MICHAEL GULLEDGE

    Mr. Gulledge. Mr. Chairman, Mr. Lantos, on behalf of the 
Inspector General, I appreciate your invitation to testify 
today. We were invited because we recently issued a report on 
the ATF's implementation of the Safe Explosives Act. My 
testimony is based on that review and I will discuss the issues 
we identified and recommendations we made and the actions that 
the ATF has taken. I will also briefly discuss the ATF's 
inspector staffing levels.
    After September 11th Congress passed the Safe Explosives 
Act to reduce the chance that terrorists could easily obtain 
explosives to carry out attacks in this country.
    Mr. Shays. Excuse me. I am going to interrupt you. Mr. 
Lantos and I are both having a little bit of trouble hearing 
you. Could you pull the mic a little closer to you? Don't feel 
you have to rush your testimony. Just speak at a nice pace.
    Mr. Gulledge. After September 11th Congress passed the Safe 
Explosives Act. Is that better?
    Mr. Lantos. Pull it closer.
    Mr. Gulledge. After September 11th Congress passed the Safe 
Explosives Act to reduce the chance that terrorists could 
easily obtain explosives to carry out attacks in this country. 
The act expanded the licensing requirements to include 
interstate users of explosives and it strengthened the 
application and licensing process.
    A key provision is that in addition to all corporate 
officers all employees who have access to explosives are to 
receive background checks. Every explosives license applicant 
is also to receive an onsite inspection. Our review found 
several deficiencies in ATF's implementation of the act which 
prevented it from ensuring that all prohibited persons were 
identified and denied access to the explosives. Prohibited 
persons are generally felons, fugitives, drug users, and other 
people who are not authorized access to explosives.
    We compared a sample of ATF and FBI records and found that 
about 9 percent of the employee applicants in ATF's records had 
no corresponding record of an FBI NICS check. Second, the ATF 
had not adjudicated about 30 percent of the cases we reviewed 
in which the FBI had completed a background check.
    Third, the ATF did not promptly deny prohibited persons 
that were identified by those NICS checks. The data available 
during our review showed that the FBI had identified 1,157 
prohibited persons through August 2004 while the ATF data 
showed that about 502 individuals had been denied access to 
explosives.
    Another problem identified during our review was that ATF 
inspectors were not consistent in their enforcement of 
explosive regulations, the ATF plan to send all its inspectors 
to an enhanced explosives training course but we estimated it 
would take about 7 years for all ATF inspectors to attend that 
course.
    The report that we issued last March included 10 
recommendations to help the ATF improve its implementation of 
the act. Since then ATF has provided information on the action 
it is taking to correct the deficiencies. For example, ATF has 
told us that it is in the process of conducting 100 percent 
cross match of its data with FBI NICS data to identify 
individuals whose backgrounds were not previously checked and 
has implemented procedures to ensure that FBI background checks 
are conducted on all future applicants.
    The ATF has also told us it has taken action on all the 
prohibited persons previously identified by the FBI and has 
taken steps to ensure that any prohibited persons identified in 
the future are promptly denied access to explosives.
    The ATF informed us that through its cross match it has 
identified and updated the records of over 24,000 individuals 
that had been cleared by the FBI and its records still showed 
as pending or denied. To improve the consistency of its 
regulatory enforcement, the ATF is making information more 
readily available by disseminating documents electronically and 
posting information on its Internet and public Web sites. ATF 
has also told us it is improving its training for its inspector 
work force, for example, by distributing training courses on 
DVD so that inspectors can view them as needed.
    Finally, the ATF developed an interactive CD that contains 
the publications, forms, technical descriptions of explosive 
products, and other information that inspectors need to conduct 
inspections. I will give you a brief update on staffing. In 
August 2004 I discussed the ATF's estimate that it needed 1,775 
inspectors to accomplish its inspections workload. That 
included inspections of firearms dealers and gun dealers.
    We questioned that number and we asked the ATF to revise 
the projection using more accurate assumptions. Last month the 
ATF provided a revised estimate that indicates it needs 1,114 
inspectors. As of last week ATF told us that it has 610 
inspectors on board not including managers. Although ATF's 
latest calculation is 760 fewer inspectors than before, it is 
still over 400 less than they have right now. Sorry, 400 more 
than they have right now.
    Also, it is based on the current population of firearms and 
explosives licensees. At present inspections of publicly owned 
explosive storage facilities are not a significant portion of 
ATF's workload. Only about 100 last fiscal year. So if the 
ATF's responsibility is expanded to include these facilities, 
the staffing requirements will have to be adjusted further.
    In summary, although our report reflected strong concern 
with ATF's implementation of the Safe Explosives Act, it 
appears that the agency is taking steps to correct the 
deficiencies we found. We believe the actions that the ATF has 
reported taking will make it better prepared should Congress 
decide to expand its authority to include publicly owned 
storage.
    This concludes my remarks. I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Gulledge follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.018
    
    [GRAPHIC] [TIFF OMITTED] T5260.019
    
    [GRAPHIC] [TIFF OMITTED] T5260.020
    
    [GRAPHIC] [TIFF OMITTED] T5260.021
    
    [GRAPHIC] [TIFF OMITTED] T5260.022
    
    [GRAPHIC] [TIFF OMITTED] T5260.023
    
    [GRAPHIC] [TIFF OMITTED] T5260.024
    
    [GRAPHIC] [TIFF OMITTED] T5260.025
    
    [GRAPHIC] [TIFF OMITTED] T5260.026
    
    [GRAPHIC] [TIFF OMITTED] T5260.027
    
    Mr. Shays. Thank you very much.
    Mr. Raden.

                    STATEMENT OF LEWIS RADEN

    Mr. Raden. Thank you, Mr. Chairman, Mr. Lantos, and members 
of the subcommittee. I appreciate the opportunity to appear 
before you today to discuss the report by the Government 
Accountability Office on thefts of explosives from State and 
local government storage facilities. I hope to provide you with 
an understanding of how the Bureau of Alcohol, Tobacco, 
Firearms and Explosives [ATF] can assist in the protection of 
these facilities.
    As discussed during this subcommittee's August 2004 
hearing, the ATF enforces Federal explosives laws and regulates 
commerce in explosives. The ATF also is responsible for 
regulating most explosives storage facilities in the United 
States. The ATF's regulatory authority over explosives extends 
back to the Organized Crime Control Act of 1970.
    This statute imposed controls over the manufacture, 
distribution, importation, and storage of explosives, and gave 
the ATF enforcement responsibility for these controls. The Safe 
Explosive Act, enacted in 2002, expanded ATF authority to 
require permits for persons who receive explosives and 
background checks for all licensees and permittees and their 
employees who possess explosives.
    Federal explosives laws require all persons who store 
explosives to comply with applicable storage regulations, 
except for Federal agencies. With respect to private entities, 
the ATF's authority to inspect explosives storage facilities is 
related to its authority to regulate licensees and permittees. 
The ATF has warrantless inspection authority only for persons 
who hold a Federal license or permit.
    State and local governmental entities are required to 
comply with the Federal storage regulations, but there is no 
mechanism in place to ensure this compliance. Because these 
entities are not required to obtain a Federal license, the ATF 
does not have statutory authority to conduct inspections at 
their storage facilities but ATF cannot conduct voluntary 
inspections.
    There are approximately 12,100 Federal explosives licensees 
and permittees in the United States. Under the Safe Explosives 
Act, the ATF is required to conduct an onsite inspection of an 
applicant's storage facilities prior to issuance of a Federal 
explosives license or permit. The ATF also is required to 
inspect storage facilities at least once every 3 years after 
issuance of a license or permit.
    During fiscal year 2005, the ATF conducted 3,800 
inspections of Federal licensees and permittees. To put these 
inspections in context, the ATF currently oversees 
approximately 118,000 firearms and explosives licensees 
nationwide. The ATF has approximately 610 to 620 industry 
operations investigators--again, these do not include 
supervisory--who regularly conduct both explosives and firearms 
inspections.
    Any person who has knowledge of a theft or loss of 
explosive material stock must report that theft or loss to the 
ATF within 24 hours of discovery. In an effort to keep 
explosives out of the hands of those who would use them for 
criminal or terrorist activity, it is the ATF's policy to 
investigate all reported thefts of explosives.
    The GAO report on explosives thefts concluded that the ATF 
would be better positioned to monitor and respond to incidents 
of missing or stolen explosives if the ATF clarified the 
Federal theft reporting requirements to ensure that all persons 
who store explosives--including State and local government 
agencies--understood their obligation to report all thefts. We 
have acted on this recommendation.
    First, in conjunction with the ATF, the National Bomb Squad 
Commanders Advisory Board and the International Association of 
Bomb Technicians and Investigators sent a letter dated April 
19, 2005, to each State and local bomb squad commander, urging 
each of them ensure that all bomb squad explosives facilities 
were as secure as.
    Second, in August 2005 ATF gave presentations on storage 
requirements to the NBSCAB Conference. On September 24, 2005, 
ATF conducted a similar presentation at the International 
Association of Chiefs of Police Annual Conference.
    Third, in October 2005 the ATF issued letters of guidance 
to the Attorneys General of each State, the International 
Association of Chiefs of Police, the National Association of 
State Fire Marshals, and the National Sheriffs Association, 
informing these organizations about Federal storage 
requirements, the timely reporting of lost or stolen explosive 
materials, and requested that agencies with magazines 
voluntarily report the locations of these magazines to ATF.
    Finally, several times a year the ATF trains State and 
local law enforcement officers and bomb technicians on Federal 
storage and theft reporting requirements. Again, Mr. Chairman 
and Mr. Lantos, I appreciate the opportunity to testify today 
and share with you the latest information on the ATF's 
explosives enforcement efforts. We have made progress in making 
our communities safer, but we know there is much more to do. We 
are determined to work with you to succeed in our mission of 
reducing violent crime, preventing terrorism, and protecting 
the public. I look forward to responding to any questions you 
may have.
    [The prepared statement of Mr. Raden follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.028
    
    [GRAPHIC] [TIFF OMITTED] T5260.029
    
    [GRAPHIC] [TIFF OMITTED] T5260.030
    
    [GRAPHIC] [TIFF OMITTED] T5260.031
    
    [GRAPHIC] [TIFF OMITTED] T5260.032
    
    Mr. Shays. Thank you. What we are going to do, Mr. Raden, 
is have you move to the other side so we can actually see you. 
Sorry. You sat where we put you but it would be better to have 
you over there. Is that mic on as well, Bob? OK.
    Let me also say that we are going to take questions. We are 
just going to pursue our questions with no clock. Mr. Lantos, 
you have the floor for the first round.
    Mr. Lantos. Thank you very much, Mr. Chairman. Let me first 
thank all four of the witnesses for their testimony. There are 
some very broad and very specific issues I would like to raise. 
First, let me state for the record that I am fully cognizant of 
the fact that the Bureau of Alcohol, Tobacco and Firearms is 
severely under-funded. The Bureau is not to be criticized for 
being under-funded. It is to be criticized for not asking for 
adequate funding. I believe that over recent times that has 
been the case.
    I am also very conscious that ATF, as every other 
organization, needed time to adjust to the paradigm shift 
following September 11th. Prior to September 11th the 
assumption was that if there are thefts of explosives the 
reason for that basically is for thieves to sell these 
explosives to the highest bidder.
    Now we are confronted with the possibility that these could 
be sold to terrorists. Since we are expending unbelievable sums 
of money to deal, for instance, with airplane security, it 
seems incomprehensible how little attention is being paid to 
these enormously dangerous items.
    I also find it puzzling, and I would like any of you ladies 
and gentlemen to answer me, why we differentiate between public 
and private storage facilities for explosives.
    The terrorists couldn't care less whether the explosives 
they gain control of come from a private facility or from a 
public facility. And to have public facilities subjected only 
to voluntary inspection boggles the mind. It is nonsensical. 
Why shouldn't we have the same mandatory provisions for public 
storage facilities that we do for private storage facilities 
since the purpose is to prevent explosives from getting into 
the hands of terrorists who don't care whether the explosives 
come from public or private facilities. I would like to ask all 
four of you to answer my question which is, is there any 
justification for a dichotomy between public and private 
facilities?
    Now, I also find it extremely disturbing that years after 
September 11th my wife routinely has her little manicure nail 
confiscated at the airport, as it should be, but there is no 
comparable effort to take charge of facilities which contain 
hundreds of pounds of very dangerous explosives. This is an 
absurdity that the Department of Homeland Security must explain 
to the American people.
    I find myself in the hilarious, but at a different level, 
very idiotic experience of going to visit my daughter at the 
New Hampshire airport at Manchester where all the people know 
me perfectly well. I take off my shoes and they inspect me 
while conversing with me knowing me full well on a first-name 
basis. Money and resources are spent for such idiotic 
activities while explosives go uninventoried, undetected, 
thefts unreported with potential damage of vast proportions.
    Fifty-nine people were killed in India over the weekend. 
Fifty-nine people were killed in a terrorist episode because 
those terrorists could not get hold of more powerful 
explosives. We are all in agreement that on September 11th the 
perpetrators would have loved to have killed not 3,000 but 
300,000 or 3 million of our fellow citizens.
    This failure of the agency in charge to differentiate 
between nail scissors and the theft of vast quantities of 
dangerous explosives literally is nonsensical. I would be 
grateful for your comments.
    I also am intrigued by the fact that according to your 
testimony, Mr. Gulledge, prohibited persons continue to have 
access to explosives until after their case is finally 
resolved. It would seem to me that prohibited persons should 
immediately have their ability to have access to explosives 
terminated and if they are cleared, their opportunity to deal 
with explosives be reinstated rather than assuming that since 
they are only prohibited and the final determination was not 
yet made, they can continue to deal with these dangerous 
materials.
    The final question I have and, again, all of you are 
welcome to comment on it, is the nonviability of the 24-hour 
reporting requirement. What are the penalties if a storage 
facility does not report a theft within 24 hours? Would you 
like to begin, Dr. Ekstrand, on my questions?
    Dr. Ekstrand. At first in terms of why public facilities 
were exempt in the passage of the law, I would think that it 
was probably a number of reasons and one of them is probably a 
States rights issue but----
    Mr. Lantos. I am not questioning why that was so in the 
past. I am asking why, at a time of a serious terrorist threat 
globally which we experience every day, 1 day in India, and 1 
day in London, 1 day in Baly, 1 day in the United States, this 
dichotomy between public and private facilities still 
continues.
    Dr. Ekstrand. I think that in respect it is a better 
question for ATF since they are responsible for----
    Mr. Lantos. Would you favor eliminating the distinction?
    Dr. Ekstrand. I think that it is a complicated question. 
All of the facilities we looked at including, and we didn't 
look at the facilities near San Mateo where the theft was. It 
is our understanding that they all would have met ATF standards 
in terms of security. We think that this is a far more 
complicated issue than perhaps even the requirements for 
security at public as well as private are not where they should 
be.
    Fences are not required. Video surveillance is not 
required. We did not feel at GAO we are in a position to 
prescribe what security there should be for explosive 
facilities but the ATF standards are fairly minimal in terms of 
security. We were not finding things that looked like obvious 
breeches of that in the public sector.
    Mr. Lantos. But you are favoring, I take it, from what you 
are saying, a dramatic upgrading of the standards and making 
them uniform?
    Dr. Ekstrand. We can't be very specific about it because we 
didn't do enough work but the work that we did do leads to at 
least the consideration that maybe the standards that are in 
place are not stringent enough for protection.
    Mr. Lantos. Do you have any comments on my other questions?
    Mr. Caramia. Background checks. The question about the 
background checks is probably best left for the Department of 
Justice and Inspector General since they did the work on that. 
We did not do any work on verification of the background checks 
on the persons that handle explosives.
    If I could just mention one other thing to elaborate on 
what Dr. Ekstrand said. One has to keep in mind that these 
facilities even though ATF does not have any responsibility for 
mandatory oversight, they are required to still comply with the 
Federal storage regulations. It is not like they are completely 
operating out there without any sort of regulation whatsoever.
    However, right now there is no mechanism whereby ATF can 
verify where everyone of those facilities are whether they are 
in compliance with the regulations. In that respect there is a 
bit of a disconnect. They are required to comply with the 
regulations but ATF has no authority to go out there and verify 
that they are in compliance.
    Mr. Lantos. Is that a bit of a disconnect or is that an 
absurdity?
    Mr. Caramia. Well, it is certainly different from what is 
required of the private sector.
    Mr. Lantos. Do you see any justification for a 
differentiation between the public and the private sector when, 
in fact, a terrorist couldn't care less where they obtain 
explosives?
    Mr. Caramia. Well, since you put it that way, it doesn't 
seem to make a whole lot of sense, but as far as the way the 
law was written, and, again, ATF can probably speak to this a 
little bit in more detail, as Dr. Ekstrand explained, it is 
probably a bit of a State's rights issue, that is, the Federal 
Government not being in a position to tell State and local 
government entities what they should be allowed to do with, for 
example, their law enforcement agencies. That could be a little 
bit of a sticky wicket, so to speak, and that may be at least 
partially one of the reasons why State and local agencies were 
made exempt from the requirements back when the original law 
was passed.
    Mr. Lantos. I understand the historic reason. I am talking 
about now in a global terrorism age is that any justification 
in your judgment for a differentiation between public and 
private storage facilities.
    Mr. Caramia. I think it makes a lot of sense but it is an 
issue right now of resources for ATF whether they can be able 
to handle the additional responsibility.
    Mr. Shays. I am sorry. It makes a lot of sense meaning 
what?
    Mr. Caramia. It seems to make a lot of sense on the face of 
it.
    Mr. Shays. To do what?
    Mr. Caramia. That ATF would have the same responsibilities 
for public sector as they do for private sector. However, there 
are other issues to consider there, one of which is the ATF 
resource issue, how much would they need in resources to be 
able to handle those additional responsibilities.
    Mr. Lantos. The resource issue is a very simple issue. ATF 
has to ask for what it needs and Congress has to provide what 
it deems ATF should have. If ATF doesn't ask for enough 
resources, then it bears a considerable share of the 
responsibility for its failure to be able to adequately 
discharge its responsibilities.
    Let me turn to you, Mr. Gulledge. What is your view of 
discrepancy, putting it mildly, between individuals found to be 
prohibited persons but since the final determination is not yet 
in they are allowed to continue dealing in explosives?
    Mr. Gulledge. A prohibited person is an individual who by 
virtue----
    Mr. Lantos. Can you speak into the mic?
    Mr. Gulledge. Yes. A prohibited person is someone who 
because they have a criminal background or have been 
adjudicated mentally defective or certain categories of aliens 
are not allowed under the law to have access to explosives.
    When an individual starts to work for an explosives 
company, that company has, I believe, 30 days to submit 
information on that individual to the ATF. The ATF then enters 
that information into its system and conducts a background 
check which it does using the FBI's national instant background 
check system, the same system used for guns.
    When the results of that NICS check come back, it indicates 
whether or not the individual has any of those prohibiting 
characteristics in their background. If they don't, then they 
are allowed to access explosives. If they do, then they are 
denied.
    During the interim between when they start to work, their 
information is submitted to ATF and the ATF gets those results, 
makes its determination, and responds back to the company 
telling the company whether that individual is a prohibited 
person and is, therefore, denied or is approved. If approved, 
they are allowed to continue working. The problem that we saw 
was that some people were not getting the background checks 
requested from the FBI and, second----
    Mr. Lantos. What does that mean, the company did not submit 
the name?
    Mr. Gulledge. The company submitted the information. We 
found the individuals in ATF's records but when we went to the 
FBI to confirm that the checks had been conducted, we didn't 
find a record at the FBI. More importantly, once the FBI did 
its check and ATF was retrieving the results, the individuals 
until they get that background check back from the time ATF 
enters them and submits the background check request to the FBI 
and they get it back, the person is held in what is called 
pending.
    We found that a considerable number of records in the ATF 
system were held in pending. Even though the ATF had requested, 
and the FBI had completed its background check most of those 
people were approved. About 1,150 of them were not approved. 
However, a lot of those people, particularly the ones we were 
most concerned with, were the ones who had been found to be 
prohibited persons. As long as they were still showing as 
pending and had not been reported back to the company, they 
continued to have access.
    Once the ATF makes its determination and enters into its 
records that a person is denied and reports that to the 
company, that individual is denied access to explosives. They 
can't appeal that but during that appeal they do not have the 
authority to continue working with explosives. Our concern was 
that even once an FBI check was done, the individuals continued 
to be held in pending with no final determination and continued 
to have access to explosives.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Lantos. I know since September 
11th, and Mr. Lantos, I think, introduced this point, that 
since September 11th there has been a paradigm shift. I will 
tell you that since September 11th I sometimes feel like I am 
in the water and I am gasping for breath and someone dunks my 
head down and then I come up again and they dunk my head down. 
I would imagine that is the way a lot of people feel in 
government, particularly as it relates to concerns about 
terrorism.
    I just want to affirm Mr. Lantos' point that if ATF doesn't 
ask for the money, it rests on its shoulders. If it does ask 
for the resources and Congress doesn't provide it, it rests on 
our shoulders. If we are not told what needs to happen, then 
you are depriving Congress of the most important part of our 
job, information to be able to evaluate what we do.
    I am surprised that a year later, actually much more than a 
year later, we had our hearing on August 2, 2004. We are beyond 
a year now. I don't really feel that much has been done in 
terms of responding to this issue. I am just going to also 
agree with Mr. Lantos that terrorists and criminals could care 
a twit about whether it is a government facility or private 
facility.
    I am also left with the feeling from this hearing that the 
standards for private facilities is not all that good so it is 
almost like an argument why do we want to mirror what happens 
in private facilities. But I have heard no testimony that says 
that the public facilities are much better. Disabuse me of that 
if I need to be. But I also have a sense that nobody cares in 
government about this issue to the extent they should care.
    Mr. Raden, I had mentioned before the hearing that I am a 
bit puzzled by the kind of response that we are getting from 
ATF. Last year Mr. Lantos asked in the hearing, and this is 
from the transcripts, ``I am not asking you whether you want to 
make technical comments. I am asking you representing the 
agency whether you are prepared at this stage to recommend a 
complete accounting of all such facilities which, it seems to 
me, is step one in regulating them. If you don't know how many 
there are, how can you regulate them and if you don't know who 
they are.''
    Then Mr. Nelson, who I think is your Deputy, is that 
correct, Mr. Raden?
    Mr. Raden. Yes, sir. That is correct.
    Mr. Shays. Walforde Nelson, Deputy Assistant Director, 
Enforcement Programs, ATF, is he still in his position?
    Mr. Raden. As a matter of fact, Mr. Chairman, today is his 
final day on the job. He is retired as of the end of the day.
    Mr. Shays. In the response he said, ``Anything we attempt, 
and it is probably a good idea to get this count, would have to 
be voluntary. We do not have authority to require agencies.'' 
Mr. Lantos says, ``Are you asking for the authority?'' ``We 
have not asked for it.'' ``Why not,'' Mr. Lantos asked? ``Mr. 
Nelson, again, when it comes to State and local agencies, we 
partner with them in many things but we are not their 
regulatory agency.''
    Mr. Lantos, ``But don't you minimally need to know how many 
such facilities are in the United States?'' Mr. Nelson, ``Could 
you repeat the question?'' Mr. Lantos, ``Yes. Wouldn't step one 
in dealing with theft such as this one we have here in San 
Mateo need to know how many such facilities there are and where 
they are located?''
    So let me just start and ask Dr. Ekstrand do we know how 
many facilities there are?
    Dr. Ekstrand. No, sir. We don't. We made a rough estimate 
just for internal use that in relation to bomb squads there are 
probably somewhere between 1,000 and 1,200 different 
facilities. In terms of university related facilities and 
transportation departments, we really couldn't get----
    Mr. Shays. So we don't know how many facilities are so, 
therefore, we don't know what facilities are. Correct?
    Dr. Ekstrand. Correct.
    Mr. Shays. Yes. Do you agree with that, Mr. Raden?
    Mr. Raden. Yes, I do agree with that, Mr. Chairman.
    Mr. Shays. Mr. Gulledge.
    Mr. Gulledge. Yes, that is correct.
    Mr. Shays. So we don't know how many facilities there are 
and we don't know--first, we don't know what facilities there 
are and we don't know how many there are. We all agree on that.
    Mr. Gulledge. Yes, sir.
    Mr. Shays. Would you like to jump in, Mr. Lantos?
    Mr. Lantos. I just find this the theater of the absurd. We 
are sitting here, seriously for the second year in a row, 
attempting to plug a whole in facilities that hold dangerous 
explosives of potential great use by terrorists. All of the 
agencies represented here are telling us they don't know how 
many such facilities there are.
    In which case the notion of regulating them, controlling 
them, establishing standards for them, becomes an absurdity. I 
find, as our chairman does, incomprehensible that in none of 
the agencies represented here is there any apparent sense of 
urgency that step No. 1 is to find out how many such facilities 
there are.
    I mean, it is insane to cavalierly say we have no idea how 
many storage facilities there are and then talk about how we 
should regulate them or whether we should regulate them. What 
organization would be responsible for just counting how many 
such facilities there are? What would be the appropriate 
agency, Dr. Ekstrand?
    Dr. Ekstrand. They would come under ATF.
    Mr. Lantos. Well, why doesn't ATF take the time and trouble 
to count the number of facilities?
    Mr. Raden. Mr. Lantos, that is a good question and I do 
have an answer for you.
    Mr. Lantos. Good.
    Mr. Raden. In fact, I have put together a survey. We were 
in the process of getting that survey through the 
administrative requirements that a survey of collection of 
public information is required. It needs to work its way 
through the department and through OMB. In that survey----
    Mr. Lantos. When did you commence that survey?
    Mr. Raden. That survey was recently commenced----
    Mr. Lantos. What does recently mean?
    Mr. Raden. Within the last 2 weeks, I think.
    Mr. Lantos. Within the last 2 weeks. So 14 months ago we 
held a hearing and you didn't do a damn thing for 13 months and 
knowing that a hearing is coming up again 2 weeks ago you start 
scurrying around and counting the number of facilities. You 
think this will wash with this subcommittee.
    Mr. Raden. No, Mr. Lantos, I don't think it will wash with 
this subcommittee. I had asked that question myself and when I 
found out the answer was we internally had not asked ourselves 
that question or had gone out to seek that information, I found 
that an absurdity. When it was brought to my attention I acted 
upon it. It is late. I agree with you.
    Mr. Lantos. Whose responsibility was it to begin a survey 
just counting the number of facilities?
    Mr. Raden. It would have been ATF's responsibility.
    Mr. Lantos. Who at ATF?
    Mr. Raden. It would have been my responsibility, sir, and I 
did not do that.
    Mr. Lantos. When will this survey be completed?
    Mr. Raden. I cannot give you a firm date on that because we 
do need OMB approval for it. On a similar topic, if I may, Mr. 
Chairman.
    Mr. Shays. Sure, Mr. Raden.
    Mr. Raden. That is from an ATF perspective because it was 
not brought into the line of questioning from me directly. Our 
agency is on record--it is a law enforcement sensitive 
document. I can't sell it with you--with the department to 
bring State and local agencies and private entities under the 
inspection authority of ATF. We have made that recommendation 
to the department. That was back in April of this year.
    Mr. Shays. Let me be a little critical and a little 
thankful at the same time just to continue with this question. 
In response to Mr. Nelson saying, ``Could you repeat the 
question,'' Mr. Lantos said, ``Wouldn't step No. 1 in dealing 
with theft such as this one we have in San Mateo be to know how 
many such facilities there are and where they are located?''
    Then Mr. Nelson said, ``One thing we did in 2001 is we put 
out a letter to all State and local enforcement agencies about 
their requirements for storage and the fact that we did a 
voluntary inspection some weeks ago.'' ``Some weeks ago.'' This 
is in August so in July 2004. ``Some weeks ago we started 
developing another letter to go out and as part of that we are 
again offering to do these inspections. We can certainly 
develop a list for this effort I would think, Mr. Lantos. You 
have 39 responses in that right.''
    Let me put in my words and you can agree or disagree. We 
have a letter from you, Mr. Raden, being sent out to a variety 
of local government agencies. The first paragraph is the Bureau 
of Alcohol, Tobacco and Firearms and Explosives. ``ATF 
respectfully request the assistance of your association in 
distributing information pertinent to the safe and secure 
storage of explosive materials.
    It has come to ATF's attention that some State and local 
government entities may not be aware of the Federal 
requirements for the storage of explosive materials and for the 
reported materials that have been stolen. ATF is seeking to 
correct this by reviewing the Federal requirements with these 
government entities.'' Is this letter that was sent out 
basically in just a few--what is the date on this? There was no 
date. When was this letter sent out?
    Mr. Raden. Is that the letter to the National Sheriffs 
Association? That letter was sent out on October 18th.
    Mr. Shays. OK. Let me say that Newt Gingrich told me one 
time that sometimes having hearings accomplishes what you want 
to accomplish just by having the hearings. I am getting a sense 
that this issue hadn't been shown on your radar screen. It had 
been on Mr. Nelson's. He had participated in this hearing. He 
is your assistant and we appreciate you being here today. Is it 
fair to say that ATF dropped the ball on this? I mean, was this 
letter of last year finally getting sent out this year?
    Mr. Raden. Well, the letters went out after I had read the 
GAO report and one of the recommendations was to collect 
information and advise State and local entities of their 
requirements under the storage laws and give them the 
information that they needed to be able to conduct basically 
what would be a self inspection. But to answer your question, 
it is late and I will take responsibility for it being late. We 
are doing and moving, I believe, at this point in the right 
direction and we were not before but I am determined to make 
sure that we are.
    Mr. Shays. Let me say that what we will do in this 
subcommittee is hold a hearing in Washington sometime in March 
if you need to use us as a bit of an excuse with OMB. What I am 
hearing you say is a few things. One is you all did drop the 
ball. Is that correct?
    Mr. Raden. That is correct. There is no other way to put 
it. When it came to my attention I acted upon it. It came to my 
attention late and I hold myself responsible for it.
    Mr. Shays. Well, that is one point. The second point is 
that you have asked OMB to do what as it relates to the 
oversight of public facilities?
    Mr. Raden. What we are doing, and it hasn't gotten to OMB 
yet because it is still in the vetting process, when you are 
conducting a collection of information, a Federal agency is 
collecting information from sources, it has to go through a 
vetting process through the Department of Justice and then over 
to OMB who then basically gives the agency the authorization to 
collect that information.
    Mr. Shays. OK. What is the information you are trying to 
collect?
    Mr. Raden. The location of all the storage facilities of 
the State and local law enforcement and other, shall we say, 
public entities.
    Mr. Shays. You are saying that it has to go through vetting 
but ultimately OMB has to approve it?
    Mr. Raden. OMB does not have to approve it but unless there 
is something unusual or some legal twist to it that I would be 
unaware of at this point, I would think that it would make its 
way through the system.
    Mr. Shays. Let me just say one other thing. Besides having 
this hearing that we will have in March, maybe the end of 
February, maybe the beginning of April, but somewhere in that 
range, Mr. Lantos and I, I think, will seek to speak to the 
Director of OMB either by letter or in person because this is a 
no-brainer so we appreciate knowing that.
    Now, I thought I heard you say besides collecting this 
information that it was your recommendation, not necessarily 
someone else's, that there be uniformity and oversight and that 
you have the ability to have oversight besides knowing these 
facilities. Did I hear that or just dream it?
    Mr. Raden. No, you heard it but perhaps it was--let me 
characterize it. Maybe I was unclear on it. What we have 
recommended over to the department in a memorandum from our 
Director is that it be examined, that ATF be given the 
authority to have statutory inspection authority over State and 
public facilities so we have recommended to the Department to 
take a look at this issue, sir.
    Mr. Shays. So you are recommending that, one, you have the 
authority and then you are not suggesting that you will use 
authority but you are saying at least give us the authority. Is 
that what I am hearing you saying right now?
    Mr. Raden. I would suggest that if we were given the 
authority that we would be using it. We also recognize the 
issue regarding and it has been brought up in different fora 
including the GAO report and what my colleague at the IG's 
office has said on the issue of the resource issue. That is 
additional responsibility. There is no question.
    Mr. Shays. Let me say that one of the challenges--I speak 
now as a Member of the majority party. One of my extraordinary 
disappointments is that what has developed in the 
administration has been that once an agency has been given its 
budget, then it is supposed to argue for its budget, nothing 
more and nothing less, even to the extent sometimes of not 
being honest and forthright with Congress as to what they truly 
need.
    It is one thing to say this is what we are requesting and 
this is what the President is requesting. It is important that 
when you are before committees that if they say, ``Do you have 
enough to do your job?'' the answer is no if it is no, not 
that, ``We can do it.'' What I am hearing you say is, one, this 
is going to get more of your attention that you all dropped the 
ball, two, that you are asking to know about where these 
facilities are, and three that you're recommending that you 
have the authority to have over-sighted these facilities. Is 
that correct?
    Mr. Raden. That's correct, sir.
    Mr. Shays. Mr. Lantos, did you want to followup on 
anything?
    Mr. Lantos. If I may, Mr. Chairman. As I understand it, 
between 2002 and the present ATF inspectors conducted 77 
voluntary requested inspections. Is that correct?
    Mr. Raden. Yes, I believe that is the number.
    Mr. Lantos. How many of these inspections resulted in 
findings that were unsatisfactory?
    Mr. Raden. I don't have that information right in front of 
me at the moment, Congressman, but I could get that information 
to you.
    Mr. Lantos. That is not satisfactory. I mean, this hearing 
was scheduled. You are representing the agency. You claim that 
you conducted 77 investigations that were requested on a 
voluntary basis. It is not an unfair question of me to ask what 
was found in the 77 voluntary examinations.
    Mr. Raden. It is not unfair of you to ask that, sir. I have 
it in materials but I do not have it before me. If that is me 
being unprepared, I apologize to you, sir.
    Mr. Lantos. Do you know theoretically if the results of the 
77 voluntary inspections are unsatisfactory, what does ATF do 
to bring the agencies into compliance?
    Mr. Raden. We would make recommendations to them on what is 
required of them to come into compliance.
    Mr. Lantos. And how many instances did you make 
recommendations to them?
    Mr. Raden. Again, that relates back to the materials that I 
don't have in front of me but we would work with the 
departments to ensure that they are in compliance.
    Mr. Lantos. How would you characterize the performance of 
your agency in controlling depositories of dangerous explosive 
materials on a scale of 10 to 0, 10 being perfect?
    Mr. Raden. Well, we have a very, very dedicated work force, 
extremely hard working and knowledgeable.
    Mr. Lantos. That is not my question.
    Mr. Raden. I am getting to your question, sir. I would 
probably rate us given what we have and what the statutory 
requirements are, what we can and we can't do in terms of 
combining the statutory mechanisms and the regulatory 
mechanisms, and using that in judging our ability, I would give 
our agency about a five or six at this point.
    Mr. Lantos. Is it part of the responsibility of the agency 
to vigorously advocate for adequate resources when the task it 
has is not adequately funded?
    Mr. Raden. Yes, sir.
    Mr. Lantos. Has that been done?
    Mr. Raden. We have asked for resources. We are on record 
with Congress. There are any variety of different reports that 
are open source whether it is through the IG or through GAO 
that plainly demonstrate the resource issues with ATF.
    Mr. Lantos. I would like to address a question to all four 
members of the panel. On the basis of what you know and what 
you have learned, would you be in favor of dramatically 
upgrading the security requirements that all storage facilities 
of explosive materials whether publicly or privately owned. Dr. 
Ekstrand.
    Dr. Ekstrand. I think we saw storage facilities that were 
without any barriers around them that were visible from major 
highways. From a lay person's standpoint in terms of security 
that makes me nervous. We also saw a storage facility that is 
in the basement of a municipal building. That makes me a little 
bit nervous, too, but maybe from a safety standpoint rather 
than a security standpoint.
    I think that GAO is really not in a position to have the 
expertise to determine what types of security is appropriate 
for these facilities. I think we saw situations that even 
though they would meet ATF standards for security, from a 
layman person's point of view didn't seem very safe. The fact 
that over a 3-year period there were over 200 thefts, that 
again makes me feel that maybe the standards are not high 
enough.
    Mr. Lantos. How about the uniformity of standards? Would 
you favor uniformity of standards irrespective of whether the 
ownership is public or private?
    Dr. Ekstrand. Well, I don't think it makes sense to have 
more stringent standards for public than private because one 
thing that seemed clear from our work is that the amount that 
is stored in these facilities and the number of facilities are 
far greater in the private sector than in the public sector. In 
terms of vulnerability, the private sector is probably more 
vulnerable just because of the amounts, both the number of 
facilities and the amount stored in those facilities.
    If there is any difference in terms of standards, then it 
probably is weighed on the side of the private facilities. I 
certainly agree with the tenor of the hearing that even the 
loss of 1 pound of explosives is a serious matter. If you can 
get 1 pound from public or private, then they are both 
vulnerable.
    Mr. Lantos. Mr. Caramia.
    Mr. Caramia. Yes. If I could just bring in a little bit 
from the locations we visited. I just wanted to address one of 
the chairman's comments earlier about whether public security 
was better or worse at these public sector facilities. We 
actually visited quite a few where they exceeded what the 
current standards require right now.
    Mr. Lantos. The current standards are palpably unacceptably 
low. To exceed unacceptably low security standards when it 
comes to explosives is not much comfort to this subcommittee or 
to the American people.
    Mr. Caramia. Actually, that's true. The standards for 
security are quite minimal for storage magazines. They require 
you to have a magazine that is theft resistant and has locks 
basically. That is the extent of the security. Some of the 
locations we visited, in effect, that's all they had. There was 
one location we visited where the storage magazine was sitting 
out next to a law enforcement training facility.
    It was sitting out in the open by itself not surrounded by 
any fences. You could drive a car right up to it and walk right 
up to it. Yet, that facility was in compliance with the Federal 
standards so that gives you an idea of perhaps the minimum 
level of standards that are currently required of all 
facilities and that is the same thing that is required of 
private sector facilities as well.
    Mr. Lantos. Any comment from either of you gentlemen?
    Mr. Gulledge. Sir, first off, we agree that there need to 
be adequate safeguards in place and that they should be 
standardized across public and private.
    Mr. Lantos. And that is not the case today.
    Mr. Gulledge. Well, the standards do apply to all. As Dr. 
Ekstrand's report demonstrated, generally they are meeting them 
in the public sector.
    Mr. Lantos. But they are meaningless standards. They are 
inadequate standards.
    Mr. Gulledge. Well, I don't have the information to say 
that. I think first----
    Mr. Lantos. Have you not been listening to the conversation 
this morning?
    Mr. Gulledge. Yes, sir. I have.
    Mr. Lantos. You have no other basis for learning it. What 
is your judgment on the basis of what testimony we have had?
    Mr. Gulledge. Well, first, I think I would need to know how 
the explosives that were stolen were stolen. Were they inside 
jobs or were they someone from outside the organization coming 
in. No matter how many safeguards you have in place physically, 
if it is an inside job, it is irrelevant.
    Mr. Lantos. Let me ask the other side of the panel. Is 
there any indication of the proportion of inside jobs in the 
thefts?
    Mr. Caramia. One of the locations we visited had a theft 
that involved actually the keys to the magazine being stolen. I 
am not sure if that would be considered an inside job but the 
person did not have to break into the storage magazine. They 
simply stole the keys and then opened the door and broke in 
that way. We have no other evidence based on the site visits we 
made of any of the thefts that were inside jobs.
    Mr. Lantos. The San Mateo case certainly was not an inside 
job. Do you agree with that?
    Mr. Gulledge. Yes, sir.
    Mr. Lantos. OK. Go ahead.
    Mr. Gulledge. In deciding what you want to do with this in 
any case----
    Mr. Lantos. We have decided what we want to do with it. We 
want to secure explosives so the American people are not 
exposed to thefts which might convey these dangerous substances 
into the hands of terrorists. That's what we want to do. We 
have long ago decided that, Chairman Shays and I. That is our 
goal.
    Mr. Gulledge. Yes, sir.
    Mr. Shays. Let me just ask our Inspector General. I am 
feeling a little bit of a push back from you and that maybe I 
am misinterpreting it. From GAO's standpoint we are basically 
hearing one, there is erratic standards on the public side and 
some States may do a good job, some counties may do a good job, 
some may not, and some do not. We are hearing from them that we 
don't know how many facilities we have so we don't know where 
these facilities are and we don't know how many of them there 
are.
    We don't even know who to contact because we don't know if 
they have a facility or not. We are also hearing from GAO, and 
correct me if I am wrong, that even if we went to the standard 
of the private side, which is overseen by ATF, that standard 
isn't all that impressive. Is that correct?
    Dr. Ekstrand. Correct.
    Mr. Shays. Do you agree with that or disagree with any part 
of it?
    Mr. Gulledge. I think I heard it a little bit differently 
from Dr. Ekstrand. I think the standards are the same for both 
sides. The point is that the public facilities there is 
variance in the degree of protection of the public facilities. 
Generally all of them met the standards if I read the report 
correctly. There is also variance on the public side.
    Mr. Shays. A comment on what you just heard?
    Dr. Ekstrand. The standards are the same across the board. 
What we found when we went out was a wide variety of achieving 
or overachieving the standards. That is that some facilities 
had additional safeguards in effect that went beyond the 
standards. We didn't find any facilities that weren't meeting 
the standards but the standards are fairly minimal.
    Mr. Shays. Right. So respond to that part. I appreciate 
your distinction. Respond to just the standards being fairly 
minimal. Do you think they are minimal?
    Mr. Gulledge. I think they are minimal. I think there are 
decisions that will have to be made as you go forward in this 
raising the standards certainly requiring video surveillance or 
electronic surveillance or physical protections.
    It will be easier for some public entities as well as 
private entities to meet than others. Some companies that use 
explosives are very small. It may create a difficulty for them. 
Those are all considerations. We don't have a position on 
whether or not you should do this but those are considerations.
    Mr. Shays. Shouldn't do what?
    Mr. Gulledge. Implement the new standards on safeguards. 
What we would try to do as----
    Mr. Shays. Let me be clear. You have no opinion on whether 
we should raise the standards?
    Mr. Gulledge. On what the specific standards should be. 
Like Dr. Ekstrand, we can't tell you what the exact standards 
should be. All we can really do is tell you the information.
    Mr. Shays. That is because you don't have the authority to 
or you haven't done the research?
    Mr. Gulledge. I haven't done the research.
    Mr. Shays. OK. Dr. Ekstrand, you made the point that one 
facility, if I heard you correctly, kept explosive devices in a 
municipal building?
    Dr. Ekstrand. That is correct, in the basement of the 
municipal building.
    Mr. Shays. OK.
    Mr. Lantos. What city is that?
    Mr. Caramia. Well, actually, when we originally did the 
work we decided that we would not divulge any of the locations 
for security purposes.
    Mr. Shays. I would like for you afterwards to tell Mr. 
Lantos and I what facility it is.
    Mr. Caramia. We certainly can.
    Dr. Ekstrand. By all means.
    Mr. Shays. Well, I just laughed. I mean, laughed not at the 
fact that a facility is like that but laughed that somehow 
we're not outraged. You are basically saying that there are men 
and women and the general public who would go to a municipal 
building that in the basement there were or are explosive 
devices. Are the explosive devices still there?
    Dr. Ekstrand. As far as we know.
    Mr. Caramia. As far as we know, yes.
    Mr. Shays. OK. Well, you know----
    Dr. Ekstrand. I would point out that it is certainly a 
safety issue. It is not necessarily a security issue but it is 
still an issue.
    Mr. Lantos. We understand that.
    Mr. Shays. When you heard that, Mr. Raden, what was your 
reaction when you heard that there was a public--that is not 
your standard, correct?
    Mr. Raden. That is correct, Mr. Chairman, to put a magazine 
in an inhabited building. The circumstances, as I read it in 
the GAO report, is a clear violation of the existing standards 
and regulations.
    Mr. Shays. OK. So at least your standards would not allow 
for that.
    Mr. Raden. That is correct, sir.
    Mr. Lantos. May I just raise an issue which is much more 
than semantic, Mr. Chairman. Dr. Ekstrand keeps using the term 
minimal standards. In ordinary conversation the notion of 
minimal means acceptable. If you are minimally qualified, you 
are qualified. You reach the minimal level of qualification for 
a certain position. I don't think the use of the word minimal 
is appropriate in this context.
    These are unacceptable standards. They are not minimal 
standards. They are useless, worthless, pro-forma standards. 
They are not minimal. They are way below minimal. Minimal would 
be no more than what is necessary. That is what minimal is. If 
I have the minimal qualifications to be admitted to a college, 
I am qualified to attend that college. These are subminimal. 
These are below minimal. Would you accept that modification?
    Dr. Ekstrand. I would say these standards are the ones that 
are currently required.
    Mr. Lantos. They are currently required and they are 
unacceptable because they are meaningless.
    Dr. Ekstrand. I really don't want to go that far because--
--
    Mr. Lantos. How far do you want to go?
    Dr. Ekstrand. Well----
    Mr. Lantos. If you say minimal, you find them acceptable. 
Minimal means acceptable.
    Dr. Ekstrand. Well, I certainly want to indicate that they 
are in accordance with ATF regulations.
    Mr. Lantos. But if ATR regulations are idiotic, that 
doesn't make them acceptable.
    Dr. Ekstrand. From a layman's point of view we did see 
circumstances that did not seem very acceptable. We don't have 
sufficient information at GAO to make a statement that they 
are----
    Mr. Shays. Could I just interrupt a second? You make me 
uncomfortable when you say from a layman's standpoint. Are you 
saying that you don't have people GAO qualified to be more than 
laymen?
    Dr. Ekstrand. We certainly do in many respects. We do not 
have people that have specific experience in relation to----
    Mr. Shays. Then let me say this to you. That is 
unacceptable from our standpoint because GAO to me is of the 
standard along with some Inspector General agencies. When you 
all come before us, I don't consider you laymen. I consider you 
disinterested parties in the sense that you are not connected.
    If your testimony is that you happen to be a layman in this 
regard, I could accept that but I would like to think the 
people that did the research aren't laymen. Otherwise, your 
value is diminished tremendously. We don't want laymen to look 
at this. We want experts to look at this. Do you not have 
experts to look at this issue?
    Dr. Ekstrand. Our researchers are extremely well qualified 
in relation to the work we do and I have no doubt about the 
quality----
    Mr. Shays. Do you have anybody in your department that has 
expertise in explosive issues?
    Dr. Ekstrand. We have no one who has that specific 
expertise but from time to time we do work with outside 
consultants. In this particular case we felt that we were at 
least adequately trained to determine----
    Mr. Shays. Let me interrupt you because I know where you 
are going. The bottom line is you are saying for what we tasked 
you to do you had the expertise.
    Dr. Ekstrand. We feel that we did.
    Mr. Shays. We want to bring this up to another level. I 
mean, I almost don't think we need to go much further with this 
panel because what I am getting from it is that basically the 
local and State and county governments, local, county, and 
State governments play by their own rules. There are certain 
standards that are uniform but that bottom line is they are not 
overseen by your agency, Mr. Raden.
    I am getting the sense that even the standards for the 
private sector is simply unacceptable and I agree with Mr. 
Lantos' terminology. We would also agree that we would not be 
saying to the States if they want to make them tougher than 
what ultimately we want as good Federal standards, the States 
are always free.
    They can't go below the minimal but we want the minimal to 
be acceptable and acceptable is not reached. What I hear from 
you, Mr. Raden, that you have a lot of things on your plate to 
deal with. You are going to give this higher attention. We will 
be able to confirm that in our hearing in Washington in 
February, March, or April, in that timeframe, to give you some 
time.
    In the meantime, Mr. Lantos and I will certainly 
congratulate you whether late or not in wanting to move this up 
to a different level. We will be in touch with OMB to make 
sure, one, you can get the information of where these 
facilities are because you know where the private site is, 
correct?
    Mr. Raden. Yes, sir. That is correct.
    Mr. Shays. Then you would want the authority to be able to 
step in. I also go under the assumption that whether or not you 
technically have the authority or not that you will raise some 
questions about any facility being stored in a public place 
where you may have city workers and the public visiting. That 
is an outrage and we don't even need alliance of authority to 
step in.
    I would like to think that you will raise some questions 
with GAO immediately about that. We will as well. We want those 
explosives to be taken out of those buildings post haste and we 
would like to make sure that is stated today, not tomorrow or 
the next day.
    I would just say to you, Mr. Gulledge, the bottom line to 
my sense is that I would like to see that you have a greater 
sense of urgency in overseeing ATF on their oversight of these 
issues. I would like to make sure it is showing up on your 
radar screen a little better.
    Mr. Lantos and I, I think, waiting for the GAO report, were 
seeing back a little more than we should have so we are going 
to up the pressure, I think, quite significantly.
    Mr. Lantos, are there any questions or any other points you 
want to make? OK. Then I think what we will do is go to our 
next panel.
    Let me just say is there any question we should have asked 
you that you need to put on the record? This is my reason for 
asking this. I don't want to hear later on that you weren't 
asked and, therefore, you didn't put it on the record. If there 
is anything pertinent that we should be aware of, that you have 
made us aware of, I want to put the burden back on you. Is 
there any point that any of you want to make? Any closing 
statement you all want to make before we go?
    Dr. Ekstrand. I think that I would like to add one thing, 
and that is there is a real question in terms of what this 
security standards should be to be safe. I would suggest that 
over the past 3 years up until the time that we completed our 
review, there had been a little over 204 thefts.
    I would suggest that information on those 204 thefts could 
be a good starting point to analyze what kinds of things are 
associated with thefts in facilities and might help to have a 
data-driven way of figuring out what kind of things are lacking 
that result in these thefts. Representative Lantos asked how 
many were inside jobs and the data on these 204 could help us 
understand that and help us move along rationally in figuring 
out what kinds of standards might be most appropriate to 
prevent thefts.
    Mr. Caramia. I just wanted to clarify one other thing. You 
had asked earlier about the results of the voluntary 
inspections that ATF had conducted and what they had found. I 
would just like to point out what we found at the locations we 
went to in addition to the one we just talked about where the 
storage facility was in the basement of the municipal building.
    We did find three other locations that appeared to be out 
of compliance with some aspect of the regulations. Now, while 
that didn't appear to relate to security, in other words, it 
didn't make the facilities more vulnerable to theft, it does 
tend to indicate that maybe there are some public sector 
facilities out there that are not quite in compliance with even 
existing regulations right now. That certainly raises the issue 
of why it is important to maybe have some more oversight of 
these facilities going forward.
    Mr. Shays. Thank you.
    Mr. Gulledge. Mr. Chairman, I would like to make one 
statement and answer one question that I didn't get a chance to 
answer before. I would say we do take this very seriously. The 
reports that we have issued on ATF, both firearms inspection, 
enforcement of the Brady Act, the Safe Explosives Act 
implementation show that we take our oversight of them very 
seriously.
    In this instance identifying the storage locations was a 
tasking that went to the GAO specifically and we coordinate 
with each other and we don't duplicate each other's work. That 
is why we did not proceed with that question. We did attend 
their entrance briefing and we knew what they were doing.
    To answer the question then of who should identify and 
inventory where these locations are, that is a separate 
questions of who should conduct the oversight. I think as an 
alternative I would offer that there are two mechanisms within 
the Department that could be helpful to you in this. The first 
is the Joint Terrorism Task Forces and the second is the Anti-
Terrorism Advisory Council, the former run by the FBI and the 
second run by the U.S. attorneys offices.
    Those councils and joint task forces have contacts with all 
law enforcement agencies and other public agencies within every 
county in the United States and there are over 3,000 counties. 
One of their duties, one of their responsibilities is to do 
risk assessments and this could fit within the purview of what 
they are supposed to be doing to contact their members, have 
them identify and report in without going through a formal 
survey process.
    Mr. Shays. Thank you.
    Mr. Raden. Mr. Chairman, Mr. Lantos, I would just in terms 
of security in the future for magazines whether private or 
public sector. We do need to take into some considerations, I 
think, in terms of some of the unique factors.
    I think some of the people on the next panel will address 
these issues but the unique factors involved with some of the 
public sector facilities such as storage of evidence and things 
of those natures in criminal cases.
    Obviously you would want to ensure that your criminal 
evidence had a great deal of security and I think you will find 
that the GAO report demonstrated that in some situations 
security was above what we have referred to here as the minimal 
standard. There is also economic impacts for remote sites and 
why some of them don't have electricity.
    Some of these things really need to be taken into 
consideration. I know that you both will in terms of if you are 
crafting legislation the type and form it will take in terms of 
ensuring that the best security model for the particular 
individual facility is taken into account. That is just 
something I wanted to comment on.
    I also wanted to clarify with Mr. Lantos, I did find the 
information on the 102 law enforcement magazines that we had 
inspected. We did note nine discrepancies in those, sir, eight 
of them related to the lock that was on the structure itself. 
It was inadequate and was subsequently replaced and one dealt 
with a recordkeeping issue. They weren't keeping their books 
for a while so I did get that information.
    Mr. Lantos. Let me be sure I understand you, sir. You say 
there were 102 inspections?
    Mr. Raden. Yes. Well, there were 102 locations.
    Mr. Lantos. 102 locations.
    Mr. Raden. 102 locations.
    Mr. Lantos. Among those 102 locations, in 9 of them the 
security was inadequate?
    Mr. Raden. In eight of them the locking systems were 
inadequate. That is the case, sir. The other was recordkeeping.
    Mr. Lantos. Ten percent of the cases had inadequate 
security locks. Isn't that true?
    Mr. Raden. That is true, sir.
    Mr. Lantos. That is extremely alarming and I would very 
much hope that all the agencies, including yours, will share 
the sense of urgency that Chairman Shays and I clearly have. 
These are very serious matters. These are not slight traffic 
violations. These cases provide the basis for a potential 
terrorist attack in the United States.
    I must say that while I was very disturbed by the hearing 
last year, I am no less disturbed by the hearing today because 
I see no sense of urgency or an indication that the seriousness 
of the matter under consideration is assimilated by those who 
are responsible for dealing with these matters. The very fact 
that you began the survey on October 18th when our hearing took 
place in August a year ago is profoundly disturbing.
    Mr. Raden. I understand that, sir, and let me assure you 
you have my attention on it.
    Mr. Shays. You know what? I think we can move forward in a 
very positive way from what we have learned from this first 
panel. Mr. Lantos and I recognize that we have some obligations 
as well. We are going to be even more aggressive than we have 
been. If that helps you persuade OMB that come March you need 
to have some good news for us, that would be constructive.
    I thank you all very much for your service and we are going 
to move to the next panel. Thank you.
    Our next panel is Mr. Fernando Gonzalez, battalion chief, 
Fort Worth Fire Department, Division of Arson/Bomb Inspection; 
Dr. Tibor G. Rozgonyi, professor and head, Mining Engineering 
Department, Colorado School of Mines; Sgt. Stanley Mathiasen, 
chairman, National Bomb Squad Commanders Advisory Board; Dr. 
Vilem Petr, assistant research professor, Mining Engineering 
Department, Colorado School of Mines; Mr. James Christopher 
Ronay, president, the Institute of Makers of Explosives [IME], 
the Honorable Don Horsley, county sheriff, San Mateo County 
Sheriff's Office, and Lt. Gary Kirby, San Jose Police 
Department.
    I thank you and you can remain standing and we will swear 
you in. Thank you very much.
    Just so you understand, all our witnesses in the Government 
Reform Committee are sworn in because we are an investigative 
committee. In my many years of being chairman now, the only one 
we never swore in was a Senator from West Virginia. I chickened 
out. Do we have everyone here? I think we are missing someone. 
Is that correct? OK. We will wait for you to come, sir.
    If there is anyone from your department that you may ask to 
respond to a question or your agency or whatever, we would want 
them to rise as well. OK. Then if you are asked to speak, we 
will have you identified then. We just have one additional 
person being sworn in.
    Are you gentlemen standing to be sworn in or not? OK. Fair 
enough. Raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you very much. If you can remember, are 
you in order of how we called your names? I think we are. We 
are just going to come around this way. Let me say that your 
full testimony will be part of the record. If you want to just 
respond to what you have heard and respond that way, feel free. 
Because we have so many witnesses it would be good if you could 
stay within the 5-minute limit. Then we will proceed with our 
questions. Thank you all very, very much for being here.
    Thank you, Mr. Gonzalez.

 STATEMENTS OF FERNANDO GONZALEZ, BATTALION CHIEF, FORT WORTH 
  FIRE DEPARTMENT, DIVISION OF ARSON/BOMB INVESTIGATION; DR. 
   TIBOR G. ROZGONY, PROFESSOR AND HEAD, MINING ENGINEERING 
 DEPARTMENT, COLORADO SCHOOL OF MINES; SGT. STANLEY MATHIASEN, 
 CHAIRMAN, NATIONAL BOMB SQUAD COMMANDERS ADVISORY BOARD; DR. 
 VILEM PETR, ASSISTANT RESEARCH PROFESSOR, MINING ENGINEERING 
DEPARTMENT, COLORADO SCHOOL OF MINES; JAMES CHRISTOPHER RONAY, 
  PRESIDENT, THE INSTITUTE OF MAKERS OF EXPLOSIVES [IME]; DON 
HORSLEY, COUNTY SHERIFF, SAN MATEO COUNTY SHERIFF'S OFFICE; AND 
           LT. GARY KIRBY, SAN JOSE POLICE DEPARTMENT

                 STATEMENT OF FERNANDO GONZALES

    Chief Gonzalez. Good morning.
    Mr. Shays. I would just say the closer you are to the mic 
the better. I realize it presents a problem if you are reading 
but it would be helpful. Sorry we are so crowded on that side. 
You know, I don't mind if one person would like to come up 
here. Would that make it easier? Is it kind of crowded there?
    Chief Gonzalez. It is fine, sir.
    Mr. Shays. I think you feel a little crowded. We are not 
breaking any rule, are we? OK. You can spread out a little bit 
and have a little bit more room. OK. We are all set for you, 
Mr. Gonzalez.
    Chief Gonzalez. Thank you. Good morning, Chairman Shays and 
Congressman Lantos and all the other distinguished ladies and 
gentlemen at this proceeding. I am Battalion Chief Fernando 
Gonzalez. I am representing the Fort Worth Fire Department. Can 
you all hear me OK?
    We utilize four explosive magazines in our city. All of 
them are alarmed and monitored 24 hours a day, 7 days a week by 
our fire alarm office. That hasn't always been the case. At 
least one of the reasons that I was invited, I assume, to this 
proceeding was because we have had not one but two thefts at 
our explosives magazines.
    In 1991 we had our first burglary. Thieves tried to cut a 
hole in the side of the magazine with a welding torch. When 
that was unsuccessful they tried to pry the roof off the 
magazine. That also did not work. Ultimately they cut the locks 
off with that welding torch.
    They stole over 100 pounds of explosives and the thieves 
were never identified. However, the explosives were recovered 
when they were found abandoned on a road about 3 weeks later. 
Not for lack of trying but they were not identified.
    As a result of that burglary, we installed an intrusion 
alarm on our magazine. Approximately 8 months later we had a 
second burglary. At this burglary, 40 pounds of explosives were 
stolen. This time the thieves used a grinder to cut the hinges 
off of the door. This time they were apprehended and the 
explosives were recovered again.
    This second theft led to the installation of perimeter 
fencing with concertina wire. I don't know if you have my 
testimony with you but there is a picture of it in exhibit A 
there.
    Mr. Shays. We have your testimony.
    Chief Gonzalez. OK. Thank you. We haven't had any thefts 
since that time. I am skeptical that alone has made our 
facility secure, the perimeter fencing. What I think it has 
done is made a little too much trouble for your garden variety 
thief to attempt.
    As a bomb squad commander there are a few security measures 
that I would welcome at our facility and I think would be 
beneficial for other facilities. The most prominent among them, 
besides perimeter fencing, would be video surveillance and 
audible alarms. Theft is not the only problem. Vandalism, of 
course, is another problem, in terms of destroying the 
explosives on the spot.
    On the second front, I think it would be beneficial to 
mandate BATF inspections of our facilities. There is a tendency 
to mass explosives in our business, not only through 
confiscations but through acquisition. When budgets are tight 
our training aids are the first to go.
    I think mandated inspections would accomplish two things. 
First, they would require a detailed inventory and detailed 
inventory, I believe, would help in case there was a theft to 
recover them quicker. The second effect that having BATF 
inspections would have, I believe, to mitigate unsafe 
practices. I think they were mentioned in the GAO report also, 
storage of explosives with the blasting gaps or storage of 
explosives with deteriorated military ordinance.
    At any rate, and all that being said, I thank you for your 
interest in the matter.
    [The prepared statement of Chief Gonzalez follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.033
    
    [GRAPHIC] [TIFF OMITTED] T5260.034
    
    [GRAPHIC] [TIFF OMITTED] T5260.035
    
    [GRAPHIC] [TIFF OMITTED] T5260.036
    
    Mr. Shays. Thank you very much.

                STATEMENT OF DR. TIBOR ROZGONYI

    Dr. Rozgonyi. Good morning, Mr. Chairman, Congressman 
Lantos.
    Mr. Shays. I need you to speak a little louder. You have a 
nice Hungarian voice that Mr. Lantos can hear but for me it is 
a little bit of a problem.
    Dr. Rozgonyi. I am Tibor Rozgonyi, professor and head of 
the Mining Engineering Department at Colorado School of Mines. 
I am really very pleased and honored to practice my citizen 
requirement and responsibility to testify for you.
    Mr. Shays. It is an honor to have you here as it is with 
all of you. Thank you.
    Dr. Rozgonyi. We have been reviewed and asked to provide 
input to your subcommittee, because to our educational research 
program we store and utilize substantial quantity of explosive 
material regularly at the Edgar Experimental Mine.
    The Colorado School of Mines is a public institution that 
was established in 1874 to support the needs of the mining 
industry. It continues to fulfill this mission today with 
special expertise in the development and stewardship of the 
Earth's mineral and energy resources.
    The Edgar Experimental Mine was donated to the Colorado 
School of Mines after the 1880 Gold Rush. It is used 
extensively for instruction, research, and testing special 
equipment, excavation technology, mining metal. It is in this 
capacity that we use explosives and, therefore, store 
explosives.
    As long as explosives remain the most effective rock 
fragmentation technology, we will educate our students on the 
safe handling of explosives and also deal with industry 
partners to provide them health and safety training and 
education.
    We work with State officials and various law enforcement 
authorities in training of their work forces and special rescue 
team. We offer education training for mining construction 
companies to enable them to be certified and licensed in 
explosive handling, storage, and use.
    We have always been mindful of the safe use and storage of 
the explosives, but there has been special emphasis placed 
after September 11th. After September 11th, we established a 
special protocol for the use and safe transport and storage of 
explosives in the Colorado School of Mines premises.
    The document provides guidelines, information, and 
requirements of how we can transport the material explosives 
from one place to the other. All of these requirements are in 
compliance with the ATF and the State's regulations. Each CSM 
employee who is directly or indirectly involved in the 
utilization of explosives has been required to obtain a 
``Responsible Person Letter of Clearance'' from the U.S. 
Department of Justice.
    We have a Type I magazine for explosive storage. It is 
built like a tunnel in a mountainous area and secured and 
furbished with all necessary equipment in order to deter any 
kind of problem.
    I would like to mention that it was a little bit of a 
surprise to me when I heard that some of those minimum 
standards were questioned here in the previous panel. I 
probably would like to point out the mining industry, which is 
very conscious, the safety and security of the explosives and 
have a very clear regulation what you can do, how you can do 
it, how you can store the explosives.
    You must dig up a certain tunnel. You must secure with a 
certain door and even specify what is the thickness of that 
steel door, what kind of padlock you can use, how you can store 
the detonators and how you can use the explosives. It is well 
specified so I believe the mining industry, and coincidentally 
the Colorado School of Mines, is very keen to maintain this 
kind of standard.
    At the Type I storage facility we do have electronic 
surveillance system. If somebody will break in, it will 
automatically inform the campus police and the campus police 
very quickly inform the Colorado Spring police department and 
the sheriff department.
    In 24 hours we report the accident if it would happen to 
the ATF. I would like to report to the committee that we have a 
very cordial and professional relationship with the ATF and the 
law enforcement agencies. As a matter of fact, I was very happy 
to see the ATF manager here. We requested their visit and they 
came and visited our facility and we are very happy to work 
with them. They gave us advice and we upgraded the system.
    What I would like to suggest for your consideration: I 
believe that we wholeheartedly can support that some Federal 
agency should be responsible for a nationwide repository for 
all explosives. I think the cheaper system is readily available 
so you can go one visit and you have the coordinate and 
everything where it is located.
    I am more concerned with the education background of the 
individual who handles explosives. I am not sure that each 
State or every agency or even employers are requiring. In the 
mining industry, they definitely do but I am not sure that in 
the construction industry or in other industry the individuals 
who are handling and using explosives has the minimum knowledge 
which is required to handle that kind of dangerous material.
    [The prepared statement of Dr. Rozgonyi follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.037
    
    [GRAPHIC] [TIFF OMITTED] T5260.038
    
    [GRAPHIC] [TIFF OMITTED] T5260.039
    
    [GRAPHIC] [TIFF OMITTED] T5260.040
    
    [GRAPHIC] [TIFF OMITTED] T5260.041
    
    [GRAPHIC] [TIFF OMITTED] T5260.042
    
    [GRAPHIC] [TIFF OMITTED] T5260.043
    
    [GRAPHIC] [TIFF OMITTED] T5260.044
    
    [GRAPHIC] [TIFF OMITTED] T5260.045
    
    Mr. Shays. Thank you very much, sir.
    Dr. Rozgonyi. Thank you.
    Mr. Shays. Appreciate it. Thank you, Dr. Rozgonyi.
    We will go now with Sgt. Mathiasen. Thank you.

              STATEMENT OF SGT. STANLEY MATHIASEN

    Sgt. Mathiasen. Gentlemen, thank you.
    Mr. Shays. Nice and loud, sir.
    Sgt. Mathiasen. I am Stan Mathiasen. I am a sergeant with 
the Santa Barbara Sheriff's Department and the bomb squad 
commander for that agency. I am also chairman of the National 
Bomb Squad Commanders Advisory Board.
    The National Bomb Squad Commanders Advisory Board was 
formed in 1998 under the auspices of the FBI Bomb Data Center 
by popular vote of U.S. State and Local Bomb Squad Commanders.
    The board is composed of 12 elected State and local bomb 
squad commanders from the four FBI reporting regions in the 
United States and its territories. Three members are elected 
from each region with one new member from each region elected 
yearly.
    NBSCAB represents all 458 State and local bomb squads and 
over 2,600 certified bomb technicians. Several Federal agencies 
are liaison members to NBSCAB including ATF, FBI, NIJ, and the 
Department of Homeland Security. NBSCAB is tasked to set 
standards for accreditation of bomb squads, certification of 
bomb technicians, review and recommendation of training 
curriculum, and review and guidance regarding research and 
development of new tools and equipment. NBSCAB is recognized as 
the sole voice on matters concerning accredited State and local 
bomb squads within the Federal Government.
    State and local bomb squads are aware of their 
responsibility to provide security for their explosive storage 
magazines and to comply with all applicable Federal, State, and 
local laws governing storage of explosives.
    NBSCAB in conjunction with the International Association of 
Bomb Technicians and Investigators has notified bomb squad 
commanders via a letter dated April 2005, to examine their 
security measures to ensure they are in compliance with 
applicable laws, to keep a current and accurate inventory of 
stored explosives, to improve security measures if needed, and 
to avail themselves of voluntary magazine inspections provided 
by ATF.
    I have provided a copy of this letter that was sent out to 
the bomb squads and would ask to have it entered in the records 
of these proceedings which I understand it has. Thank you.
    NBSCAB is not opposed to increasing security requirements 
for magazine security. However we have several concerns. State 
and Local public entities are required to comply with current 
ATF--as well as any State and local--requirements for storage 
of explosives. Adding new Federal requirements for lights, 
alarms, fences, and other security measures will place 
additional compliance burdens on public safety agencies not 
required of Federal agencies, or the private sector.
    Any requirement for mandatory inspection by ATF may be 
problematic for State and local bomb squads, in that not only 
are explosives stored in magazines, but explosive related 
evidence in criminal cases are stored there as well.
    The offer by the Federal Government to pay for additional 
security measures through Homeland Security Grant Funds, 
mentioned in the proposed draft legislation, while attractive, 
may present a situation where the bomb squad will receive only 
those funds necessary to provide additional magazine security, 
and will not enhance their response capability.
    With the competition for grant funds among local agencies 
great, I fear this requirement may actually decrease the 
ability of bomb squads to obtain needed equipment. It may set 
up a situation where grant administrators are required to spend 
funds on magazine security in lieu of response equipment.
    Bomb squads are on the front line in the response to 
terrorism in the United States and it is imperative that there 
be no degradation of operational response capabilities in these 
critical incidents. While this proposed legislation stands to 
provide some limited benefit to public safety through the 
addition of extra layers of security for stored explosives, 
there is a real danger that this benefit will be offset by a 
higher risk to the public through a potential diversion of 
funds for critical operational resources.
    Thank you.
    [The prepared statement of Sgt. Mathiasen follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.046
    
    [GRAPHIC] [TIFF OMITTED] T5260.047
    
    [GRAPHIC] [TIFF OMITTED] T5260.048
    
    [GRAPHIC] [TIFF OMITTED] T5260.049
    
    Mr. Shays. Thank you very much, Sergeant.
    Mr. Petr. Thank you. I think that mic may have been turned 
off.

                    STATEMENT OF VILEM PETR

    Mr. Petr. Thank you. Mr. Chairman and subcommittee members, 
ladies and gentlemen, I am sorry for my Czechoslovakian accent.
    Mr. Shays. It is a great accent.
    Mr. Petr. Thank you. I am pleased and very happy that I can 
testify today for you.
    Just quick introduction of myself. My name is Vilem Petr.
    Mr. Shays. I am going to have you not give your 
introduction of yourself. Just tell us about what you want on 
the record here.
    Mr. Petr. OK. Yes.
    Mr. Shays. Thank you. Only because we are aware of 
everybody's qualifications. That is why we invited you.
    Mr. Petr. OK. Thank you. I am a research assistant 
professor at Colorado School of Mines. At the same time I am an 
explosive inspector for State of Colorado, Department of Labor 
and Employment, Division of Oil and Public Safety, Denver 
office in Colorado.
    I have two things I would like to address. One is from the 
end of the user, people who are using daily explosives and also 
when you can control and regulate the explosives. One part that 
I think is important that also Dr. Rozgonyi mentioned for 
education purposes is how we can regulate and how we can use 
explosives.
    The other part is when I represent the State of Colorado, 
when I am State inspector, I would just bring quickly overview 
of how many people, how many licenses we have by October 22, 
2005. We have 1,725 active Type I permits, people who 
physically touch explosives, and we have 675 Type II permits. 
This is the companies who own explosives.
    Also we have 287 Type III, the license for explosive 
magazines. The State of Colorado is following Federal 
regulations. Also we are controlling like if somebody will come 
and would like to have license from State of Colorado or 
practice explosive demolition or different things using 
explosives, they will also have to not just have ATF license 
but they will have to have Colorado license.
    To be able to get Colorado license or use explosives, you 
have to have a minimum of 1 year experience under someone who 
has experience using explosives. The second part we also have 
is a regulation that you have to be 21 and mentally and 
physically able like we have with ATF.
    But they have to provide us with employer letter that they 
have more than 1 year experience under supervision of somebody 
who has license.
    We are not just giving a license to people. I want only to 
point it out. We can talk more about that later. Not all the 
States have controls like in Utah or Wyoming. They are much 
more leaning for the regulations and who has access to the 
explosives.
    I will stop here. If you have some questions, I will be 
happy to answer them.
    [The prepared statement of Dr. Petr follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.050
    
    [GRAPHIC] [TIFF OMITTED] T5260.051
    
    [GRAPHIC] [TIFF OMITTED] T5260.052
    
    [GRAPHIC] [TIFF OMITTED] T5260.053
    
    [GRAPHIC] [TIFF OMITTED] T5260.054
    
    [GRAPHIC] [TIFF OMITTED] T5260.055
    
    Mr. Shays. Thank you. One of the reasons we invited you was 
that our reading is that Colorado has paid a lot more attention 
to this than other States and we thank you.
    At this time we will go to Mr. Ronay.

              STATEMENT OF JAMES CHRISTOPHER RONAY

    Mr. Ronay. Thank you, Mr. Chairman and Representative 
Lantos. Good morning.
    The Institute of Makers of Explosives is very pleased to be 
here today once again having participated last year. We are the 
Safety and Security Institute serving the commercial explosives 
industry and the government since 1913. You may recall from my 
previous testimony that over 5\1/2\ billion pounds of 
industrial explosives are consumed annually in the United 
States. All of the metals, minerals, petroleum products, 
construction materials, and many consumer products are 
available today because commercial explosives make them 
possible.
    Since our last meeting, the IME has completed and published 
safety library publication No. 27 which I have provided to the 
subcommittee. It is entitled, ``Security in Manufacturing, 
Transportation, Storage and Use of Commercial Explosives.'' 
This comprehensive document addresses security in all aspects 
of daily operations and is intended for use by all who use 
commercial explosives.
    The IMR is also working closely with the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives to develop security 
recommendations for Federal explosives licensees. We have also 
produced a training video with ATF dealing with the safe 
storage of explosives. The explosive industry embraces the 
oversight of the many agencies that promulgate the rules by 
which we are governed. We are very proud of our contribution to 
the development of these rules over the last 90 years.
    I want to emphasize that the current Federal regulatory 
regime works very well for the industrial sector. We believe 
that any mechanism that prevents explosive materials from 
falling into the wrong hands enhances security. It would 
undoubtedly be best to require Federal oversight of all 
explosive storage facilities. However, I must emphasize that 
any additional mandate given to the ATF must not infringe on 
its ability to maintain appropriate oversight of the many more 
and much larger industrial explosives operations and 
facilities. The ATF presently has barely adequate facilities to 
oversee all the private sector licensees.
    Finally, let me emphasize this industry's commitment to the 
security of all explosives operations. We continually seek to 
develop more effective and reasonable requirements that will 
ensure the continued availability of our products for use in 
the commerce of our Nation.
    I thank the subcommittee for this opportunity and will 
respectfully answer any questions.
    [The prepared statement of Mr. Ronay follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.056
    
    [GRAPHIC] [TIFF OMITTED] T5260.057
    
    [GRAPHIC] [TIFF OMITTED] T5260.058
    
    [GRAPHIC] [TIFF OMITTED] T5260.059
    
    Mr. Shays. Thank you, Mr. Ronay.
    Sheriff Horsley.

                    STATEMENT OF DON HORSLEY

    Sheriff Horsley. Thank you, Chairman Shays and Congressman 
Lantos. It has been over a year since my initial testimony 
before this subcommittee and my staff has been hard at work to 
improve the effectiveness of our bomb squad and rectify the 
conditions which led up to the July 2004 burglary of our shared 
storage facility located on the city and county of San 
Francisco Watershed Property, located in unincorporated San 
Mateo County.
    Over the past year we have conducted a thorough review of 
our bomb squad to determine its operational status, training 
needs, management oversight and feasibility of a new storage 
site in San Mateo County. Last year our bomb squad had only two 
certified bomb technicians. Since then we have added three more 
bomb technicians to the squad as a consequence of the 
international events.
    In addition, I have mandated that my management staff who 
has responsibility for oversight of the bomb squad attend the 
Hazardous Devices School [HDS], executive management course 
located at the Redstone Arsenal in Alabama. This course is 
designed to provide managers to effectively manage a bomb squad 
to ensure proper oversight and accountability.
    Since the last public hearing on the subject, we have been 
successful in obtaining Homeland Security funding for much 
needed equipment, such as a response vehicle, state-of-the-art 
robot and various other mitigation tools and safety equipment 
that was lacking for our bomb squad in the past.
    As of today's date, however, we have been unsuccessful in 
finding a suitable site in San Mateo County for storage and 
mitigation. However, within the next 60 days, we will be making 
a presentation to a city council in San Mateo County, with 
hopes of using a site within their city limits that meets both 
our requirements, and that of the Bureau of Alcohol, Tobacco, 
Firearms and Explosives [BATFE].
    We are currently in the process of securing a temporary 
agreement with another law enforcement agency that exceeds that 
of the Bureau of Alcohol, Firearms, and Tobacco guidelines 
within the San Francisco Bay Area to store our explosives. Our 
Sheriffs Office executive staff has inspected this storage 
site. In fact, I have some photographs if you wish to see them 
later. They have reviewed their security and feel that it is 
suitable for our needs while we continue to search for a 
permanent site in San Mateo County.
    The sheriffs bomb squad receives and responds to 
approximately 200 calls per year. When we collect explosive 
evidence, we render it safe, photograph the evidence, document 
our findings and dispose of it immediately at a predetermined 
location. On certain occasions, when the explosive device is 
rendered safe and disassembled, a small representative sample 
of the incendiary powder is kept as evidence to authenticate 
the device. At this time, we are not storing any explosive 
evidence but we are storing evidence with a neighboring 
county's facility.
    Without a storage and/or training facility of our own, we 
must travel out of county, which reduces our response time to 
bomb call-outs, increases staff costs in terms of overtime, 
creates another link in the chain of custody for those cases in 
which explosive evidence must be maintained.
    Sheriffs bomb technicians currently provide expert 
testimony from the evidence that is collected and/or tested to 
authenticate any type of explosive device for all law 
enforcement agencies in San Mateo County. They do so from 
evidence that has been collected in either a pre- or post-blast 
crime scene.
    Since we do not currently have explosives to train with, we 
have been doing explosive training with other local bomb squads 
and enrolling our staff in explosive training courses provided 
by both the Federal Bureau of Investigation and the Hazardous 
Device School.
    Some of this training could be done in house which would 
reduce costs to the Sheriffs Office, and at the same time 
ensure that our bomb technicians meet the minimum monthly and 
yearly Federal training requirements.
    As we move forward in planning to secure a new storage 
site, the main affect on our agency is the inability to store 
explosives, explosive evidence and to assist local in-county 
law enforcement agencies with collecting and storing 
confiscated illegal fireworks.
    This concludes my comments. I would like to again thank the 
subcommittee for your interest in this issue and for your work 
in helping to develop national standards for explosive storage 
facilities.
    [The prepared statement of Sheriff Horsley follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.060
    
    [GRAPHIC] [TIFF OMITTED] T5260.061
    
    [GRAPHIC] [TIFF OMITTED] T5260.062
    
    Mr. Shays. Thank you, Sheriff Horsley.
    At this time Lt. Kirby.

                  STATEMENT OF LT. GARY KIRBY

    Lt. Kirby. Good morning, Chairman, Mr. Lantos, and 
subcommittee members. I am currently a lieutenant for the San 
Jose Police Department assigned to the Chief's Office as 
commander of Research and Development Unit.
    The San Jose Police Department has 12 active bomb 
technicians and investigators and we investigate approximately 
250 to 300 explosive incidents a year. Since 1992 the 
department has maintained an explosive storage magazine for 
both high and low grade explosives on the site of our 6-acre 
Bomb Range and Training Facility.
    The Bomb Range and Training Facility is the only explosive 
magazine available for use to other county, State, and Federal 
law enforcement agencies within Santa Clara County. This 
facility exceeds current ATF explosive storage requirements as 
set forth in U.S. Government codes.
    In addition to the ATF storage regulations, this facility 
has daily inspections of the explosive storage magazine and is 
completely surrounded with locked cyclone fencing and 
electronic monitoring devices.
    Explosives are stored at the facility for a variety of uses 
which include evidence storage of a criminal investigation, 
related bomb technician duties for rendering safe explosives, 
rendering safe explosives for training facilities, ongoing 
training and special instructional courses provided in 
conjunction with the FBI and ATF, as well as providing the safe 
storage of explosives used exclusively for training San Jose 
Police Department bomb detection dogs assigned to the San Jose 
Airport as part of the Transportation Safety Agency security 
requirements.
    The BRTF is located in a heavily industrialized section of 
the city of San Jose which also happens to be a considerable 
distance away from residential populations and also frequent 
patrol activities that would check during non-business hours.
    In the past, the San Jose Police Department was confident 
with the existing security measures in place for the protection 
of explosive materials and safety measures for personnel 
responding to alarm calls on breaches in security at the BRTF. 
In light of the current threat environment, however, associated 
to potential terrorist activity, our position and level of 
comfort on adequate security measures has changed.
    We, along with other associations such as the International 
Association of Bomb Technicians and Investigators, believe we 
should elevate our ability to secure, monitor, and respond to 
incidents relating at our BRTF. The course of corrective action 
determined by the police department to provide the desired 
security enhancements is to install a more sophisticated 
security alarms that will detect intrusive movements anywhere 
on the bomb range training facility prior to any intrusion 
targeting the explosive storage magazine.
    The addition of remote camera viewing through secured 
computer Web access directly to the San Jose Police Department 
Communications dispatch operators is an additional enhancement 
recommendation. This will not only allow for remote camera 
viewing during security breaches, but also adds increased 
security during training and routine explosives handling.
    Most breaches in security require a post investigation that 
centers around such questions as what was taken, who took the 
explosives, and how do we initiate a timely investigation with 
suspect descriptions and routes of departure. The proposed 
security enhancements would assist in the post-investigative 
process and could possibly act as a deterrent to a breach in 
security by their mere presence.
    To secure funding for this project, estimated at a cost of 
approximately $20,000, the San Jose Police Department submitted 
a request for funding on the 2005 U.S. Department of Homeland 
Security, Office for Domestic Preparedness, through the 
California State Homeland Security Program. The request was 
submitted to the Santa Clara County State Homeland Security 
Approval Authority for consideration. The Approval Authority 
took the request under submission and presented it along with 
other law enforcement agency requests to be prioritized in 
order of importance as determined by the Santa Clara County 
Association of Police and Fire Chiefs.
    Through their prioritization process, the funding to 
purchase the increased security and monitoring equipment was 
not granted on the first round of approval. To the credit of 
the Santa Clara County Approval Authority, this body did 
recognize the importance of this equipment and committed to 
earmarking any identified project savings during this funding 
period to purchase the requested equipment.
    However, in the interim, a similar request for funding has 
been submitted to the Department of Homeland Security, Buffer 
Zone Protection Plan. We feel this is a greater likelihood that 
this security enhancement will be made available through the 
BZPP funding rather than waiting for identified project savings 
from State Homeland Security.
    Law enforcement agencies nationwide continue to work 
together in the fight against terrorism. We know that the use 
of explosives is a key effort in the terrorist activity. I 
believe the efforts of this subcommittee will assist in the 
winning of this war, through collective sharing and support of 
security enhancements that will work toward guarding the 
Nation's storage of explosives.
    I thank you for the opportunity to talk to this committee 
and I am available for questions.
    [The prepared statement of Lt. Kirby follows:]

    [GRAPHIC] [TIFF OMITTED] T5260.063
    
    [GRAPHIC] [TIFF OMITTED] T5260.064
    
    [GRAPHIC] [TIFF OMITTED] T5260.065
    
    [GRAPHIC] [TIFF OMITTED] T5260.066
    
    Mr. Shays. Thank you. We appreciate the testimony of all of 
you. Let me just start out by saying I would like to know from 
each of you what you may have agreed with most from the first 
panel and what you may have disagreed with most from anything 
you heard from the first panel. What you agreed with most and 
what you disagreed with most.
    I am going to be looking for not long answers but fairly 
concise. I want to confide with all of you that I have a flight 
that leaves before 1 p.m., and if I could be out of here at 
12:40 p.m., I will make my flight fine. Why don't we start with 
whoever is ready first to start.
    Lt. Kirby. Listening to the testimony today, I think that 
it was quite spirited and got to the point that although 
standards, though minimum, need to be quickly exceeded. We have 
tried to do that. Some of the things that I think need to be 
imposed upon is that we have talked about either two types of 
intrusion, either internal theft or external blatant break-ins.
    Nowhere has there been a consorted discussion of how law 
enforcement agents such as myself and the sheriff seated here 
today would be responsible for recovering and successfully 
prosecuting these people that did that. As you create your 
standards, I would anticipate that there would be something 
into the early warning system, the capturing of photo ID and 
alarm systems that go to establish those procedures.
    I also noticed that there was no discussion in the enhanced 
security within reason that these measures are using electronic 
devices for monitoring of breeches, that there is backup power, 
and that there are procedures set in place when there are power 
interruptions that inspection processes take place of those 
facilities. Those would be a couple of things that I would add 
to for consideration.
    Mr. Shays. Thank you.
    Sheriff Horsley. I think in my last testimony from a year 
ago, I recognized that there needed to be a national standard. 
Reading the GAO report on the number of thefts that occurred 
just in a few months of 2003, it was disconcerting to find out 
how many thefts there were from private storage facilities. I 
would recommend that there be national standards that apply to 
both the public and private sector, that they be consistent, 
and that there should be either annual or bi-annual inspection 
of all of those sites.
    Mr. Ronay. I would have to agree with the first panel 
entirely that security should be the same for all storage 
entities. We have no question that they are already required to 
do so but the oversight that we have discussed would be 
appropriate.
    I really don't have any cause to disagree with any of the 
presentations made except that in the development of these 
standards that we have today consideration has had to be given 
to the reality of conducting business in the United States, 
providing these products realistically to the consumers.
    What might appear to be inadequate in some cases or 
minimally acceptable--I am commenting on your observation, Mr. 
Lantos--some of these things have been deemed to be required 
just for operational necessity. However, there is great room 
for improvement and our recommendations in the document that I 
mentioned do require considerably enhanced security measures.
    Mr. Shays. Quickly before going to the rest of the panel, 
what State to you is the benchmark that we should look to that 
would toughen our standards beyond what the Federal Government 
has? What State to you is the most impressive in its oversight 
and regulation?
    Mr. Ronay. What State of the union?
    Mr. Shays. Yes.
    Mr. Ronay. We are dealing in the State of Pennsylvania 
right at the moment with some very, very onerous security 
regulations that they have put in emergency effect.
    Mr. Shays. I didn't ask you which is the most onerous. I am 
asking which of the ones do you think make the most sense? Is 
it Colorado? Is it what State? Think about it and I will come 
back to you.
    Mr. Ronay. OK.
    Mr. Shays. Am I putting you in an awkward position?
    Mr. Ronay. No, not at all. I am just not sure I can answer 
that.
    Mr. Shays. OK. Just think about it and I will come back.
    Mr. Petr.
    Mr. Petr. Thank you. I agree with everybody here that we 
need some uniform force here who can inspect magazines, not 
just private or the government like a bomb squad. In my private 
experience, I was helping with training bomb technicians and I 
have buried lots of friends but I think we should have access 
and somebody should overview their bookkeeping about explosive, 
how much explosives out, how much explosives in, who sold it, 
who bought it. I think it should be not just ATF but also maybe 
even the States should be involved in this regulative role.
    What I disagree with, you know, the last 13 years I was 
here in the USA and I saw the change of the ATF. I saw that ATF 
before didn't do too much about explosives because they were 
not interested. They did lots of gun control and all that. Now 
I think they are doing a great job the last couple of years and 
I see the changes that ATF is improving for State of Colorado, 
Utah, and Wyoming.
    They have only three inspectors to inspect all the 
magazines. Now they have 10 inspectors and they finally are 
getting up to speed. I am just saying this is from the field 
and I am getting feedback that they do a great job. They go 
back and they go in depth with checking. I think this is----
    Mr. Shays. So whatever we see as a state of affairs, it was 
a lot worse before?
    Mr. Petr. Yes.
    Mr. Shays. And you have seen improvement.
    Mr. Petr. Yes.
    Mr. Shays. Thank you.
    Sgt. Mathiasen. With this morning's testimony, I think we 
all know that these standards are probably set too low and we 
need to bump them up and we are in agreement with that. I was 
just a little bit surprised that they did identify some thefts 
that weren't reported. In the 20 years I have been a bomb 
technician and a bomb squad commander you know that when 
explosives are stolen you report it to ATF. That is drilled 
into you day one when you go to training.
    Mr. Shays. So you were surprised they were not reported and 
we should be taking a better look at that and the consequences 
of not reporting. Thank you. Any other point?
    Sgt. Mathiasen. The only other point is sometimes those 
reporting requirements sometimes are paperwork errors. Somebody 
checked something in, somebody checked something out and they 
weren't on the same page. I would like to know more about what 
those thefts that weren't reported were.
    Mr. Shays. Thank you.
    Dr. Rozgonyi.
    Dr. Rozgonyi. I think almost everybody took away what I was 
thinking, but I fully agree that we definitely should have a 
common basis for both public and private institution including 
universities. Especially if you take into account the diversity 
of the student body, what you are dealing with at the 
universities. I do not see a clear system how we should deal 
with that and the liability of the universities.
    I think also that clear incidents reporting mechanisms 
should be established so there should not be any kind of 
misinterpretation and whom should report that one and when and 
how. And some kind of consequences if it is not happening in 
due time. Thank you.
    Mr. Shays. Thank you.
    Mr. Gonzalez.
    Chief Gonzalez. Thank you. One of the gentlemen from ATF 
mentioned the remoteness of the facilities which they are by 
need remote from most areas.
    Mr. Shays. Unless they are in a municipal building.
    Chief Gonzalez. Except for that one. That is true. Because 
of that remoteness it protects the thieves as well as the 
people around them. Although this is a nuts and bolts issue, I 
guess, the security of these facilities should be something 
preventative, something prior to the magazine actually being 
breached because that is what takes the time. If you actually 
want to prevent a thief, I think that is where the security 
should concentrate.
    Mr. Shays. Thank you.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. Let me thank all the 
witnesses. I am very pleased that there is a growing consensus 
among these knowledgeable people that there ought to be no 
differentiation between public and private facilities because 
it simply doesn't make sense, that there need to be higher 
standards, that ATF needs to be better funded, and the higher 
standards will have to be fully adhered to and punitive 
measures taken where they are not.
    I want to commend Sheriff Horsley and his department for 
taking these very significant steps that you have outlined to 
improve security here in San Mateo County. While we were all 
deeply regretful that these thefts occurred here, in the long 
run, it may have very positive ramifications because both the 
first hearing and this hearing, the subsequent hearing the 
chairman is planning, and the legislation we will introduce are 
the direct result of this episode and I am pleased that from 
this unfortunate incident positive nationwide consequences will 
flow.
    I also want to thank you again, Mr. Chairman, for taking 
your very precious time and coming out here. This is a 
difficult area to come to and we appreciate your willingness to 
visit us.
    Mr. Shays. My only problem is that I have family, a brother 
in Hillsboro, and I didn't tell him I was even here. He may 
read about it in the newspaper and wonder why.
    Mr. Lantos. We will have a news blackout on this hearing, 
Mr. Chairman.
    Mr. Shays. Let me ask. Is there any final point that anyone 
wants to make sure is on the record that needs to be on the 
record so we don't leave here without that information being 
provided? First of all, I would quickly like to say give me a 
few of the model States. You don't have to give me just one.
    Mr. Ronay. Yes. I was just thinking about it. I think in 
addition to Colorado, Kentucky and Connecticut have excellent 
regulatory----
    Mr. Shays. You didn't say Connecticut just because I am 
from Connecticut?
    Mr. Ronay. I had forgotten that entirely that you were from 
there.
    Mr. Shays. Good to know. That makes me feel very good. 
Thank you.
    Mr. Ronay. They are pretty good. I would make my one final 
comment if I might.
    Mr. Shays. Sure.
    Mr. Ronay. That is, throughout the many years I have been 
with the IME we have always endorsed funding for ATF to do 
their job properly. We know that it is a heavy task on them and 
if anything additional is added to their responsibilities, I 
know they have asked and we certainly would endorse that 
additional funding.
    Mr. Shays. We totally agree that if you are going to ask 
them to do more, given that they are not funded enough now, we 
had better come up with some dollars for it. I think that is 
very clear.
    Anyone else like to put any----
    Mr. Petr. Mr. Chairman, I just want to thank by name Vince 
Chase and Bob Briggs of your staff for an outstanding job.
    Mr. Shays. Thank you. And thank your staff as well.
    Mr. Lantos. Jason Rosenstock, Lynne Weil, and Ron Grimes.
    Mr. Shays. We appreciate their work as well. Is there any 
other----
    Mr. Petr. If you will make some changes in these 
regulations, can we define some license for the whole Nation, 
explosive license or explosive user that maybe ATF will double 
up tests that can be uniform for each? Right now every State 
has different regulations.
    Mr. Shays. I think the focus that you are making clear to 
us, and others have as well, that besides looking at the 
facility and where we have the facility and how we keep the 
facility, the people who handle the explosive devices obviously 
are equally, if not more, important. That is a very key point. 
I see nodding of heads by the witnesses.
    Any other comment before we hit the gavel? Any point that 
needs to be made part of the record? OK. With that we adjourn. 
I thank you for the cooperation of this panel. Excellent panel 
and we appreciate your work and help. We look forward to 
reporting back to you in March about where we're at. This 
hearing is adjourned.
    [Whereupon, at 11:33 a.m. the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5260.067

[GRAPHIC] [TIFF OMITTED] T5260.068

[GRAPHIC] [TIFF OMITTED] T5260.069

[GRAPHIC] [TIFF OMITTED] T5260.070

[GRAPHIC] [TIFF OMITTED] T5260.071

                                 <all>

</pre></body></html>
